<html>
<title> - STEM EDUCATION IN ACTION: LEARNING TODAY . . . LEADING TOMORROW</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       STEM EDUCATION IN ACTION:
                 LEARNING TODAY . . . LEADING TOMORROW

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, JUNE 16, 2011

                               __________

                           Serial No. 112-26

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-926                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                            C O N T E N T S

                        Thursday, June 16, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     8

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10


                               Witnesses:

Dr. Karen Lozano, Professor at University of Texas Pan American, 
  Parent to Pablo Vidal and Mentor to the i.streets (Intelligent 
  Streets) Discovery Montessori School Team, McAllen, TX
    Oral Statement...............................................    14
    Written Statement............................................    15

Master Pablo Vidal, third-grade student at Discovery Montessori 
  School and member of the i.streets (Intelligent Streets) Team, 
  McAllen, TX

Mrs. Brenda Conwell-Dudley, Parent to Jack Dudley and Mentor to 
  the HEADS UP! Virginia Virtual Academy Team, Leesburg, VA
    Oral Statement...............................................    17
    Written Statement............................................    19

Master Jack Dudley, sixth-grade student at Virginia Virtual 
  Academy and member of the HEADS UP! Team, Leesburg, VA

Mrs. Amy Attard, Science Teacher and Coach to the I-TBS: Intra-
  Trachea West Hills Middle School Team, Commerce, MI
    Oral Statement...............................................    21
    Written Statement............................................    23

Miss Claudia Cooper, seventh-grade student at West Hills Middle 
  School and member of the I-TBS: Intra-Trachea Team, West 
  Bloomfield, MI

Ms. Anne Manwell, Science Teacher and Mentor to the 3Drenal: 
  Kidney Bio-Printer Stuyvesant High School Team, Brooklyn, NY
    Oral Statement...............................................    25
    Written Statement............................................    27

Miss Alison Reed, 10th-grade student at the Stuyvesant High 
  School and member of the 3Drenal: Kidney Bio-Printer Team, 
  Brooklyn, NY

             Appendix I: Answers to Post-Hearing Questions

Dr. Karen Lozano, Professor at University of Texas Pan American, 
  Parent to Pablo Vidal and Mentor to the i.streets (Intelligent 
  Streets) Discovery Montessori School Team, McAllen, TX.........    44

Mrs. Brenda Conwell-Dudley, Parent to Jack Dudley and Mentor to 
  the HEADS UP! Virginia Virtual Academy Team, Leesburg, VA......    46

Mrs. Amy Attard, Science Teacher and Coach to the I-TBS: Intra-
  Trachea West Hills Middle School Team, Commerce, MI............    48

Ms. Anne Manwell, Science Teacher and Mentor to the 3Drenal: 
  Kidney Bio-Printer Stuyvesant High School Team, Brooklyn, NY...    50
Master Jorge Vidal, student, McAllen, TX; Master Jack Dudley, 
  student, Leesburg, VA; Miss Alison Reed, Miss Norine Chen, and 
  Mr. David Kurkovskiy, students, Brooklyn, NY...................    53


    STEM EDUCATION IN ACTION: LEARNING TODAY . . . LEADING TOMORROW

                              ----------                              


                        THURSDAY, JUNE 16, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

    STEM Education in Action: Learning Today . . . Leading Tomorrow

                        thursday, june 16, 2011
                         10:00 a.m.--12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, June 16, 2011, the Committee on Science, Space, and 
Technology will hold the first in a series of hearings to highlight 
Science, Technology, Engineering, and Math (STEM) education activities 
across the Nation, their role in inspiring and educating future 
generations, and their contribution to our future economic prosperity. 
The first hearing, STEM Education in Action: Learning Today.. . . . 
.Leading Tomorrow, will showcase the finalists, parents, teachers, and 
mentors of the ExploraVision Awards National Competition, sponsored by 
Toshiba and the National Science Teachers Association.

Witnesses

    <bullet>  Dr. Karen Lozano, Professor at University of Texas Pan 
American, Parent to Pablo Vidal and Mentor to the i.streets 
(Intelligent Streets) Discovery Montessori School Team, McAllen, TX

    <bullet>  Master Pablo Vidal, third-grade student at Discovery 
Montessori School and member of the i.streets (Intelligent Streets) 
Team, McAllen, TX

    <bullet>  Mrs. Brenda Conwell-Dudley, Parent to Jack Dudley and 
Mentor to the HEADS UP! Virginia Virtual Academy Team, Leesburg, VA

    <bullet>  Master Jack Dudley, sixth-grade student at Virginia 
Virtual Academy and member of the HEADS UP! Team, Leesburg, VA

    <bullet>  Mrs. Amy Attard, Science Teacher and Coach to the I-TBS: 
Intra-Trachea West Hills Middle School Team, Commerce, MI

    <bullet>  Miss Claudia Cooper, seventh-grade student at West Hills 
Middle School and member of the I-TBS: Intra-Trachea Team, West 
Bloomfield, MI

    <bullet>  Ms. Anne Manwell, Science Teacher and Mentor to the 
3Drenal: Kidney Bio-Printer Stuyvesant High School Team, Brooklyn, NY

    <bullet>  Miss Alison Reed, 10th-grade student at the Stuyvesant 
High School and member of the 3Drenal: Kidney Bio-Printer Team, 
Brooklyn, NY

Overview

    <bullet>  ExploraVision is a science competition for grades K-12. 
Students are asked to research a technology of their choice and explore 
what that technology could be like in 20 years. Teams explore how their 
visions of technology could work and what breakthroughs are necessary 
to make their ideas a reality. The competition is sponsored by Toshiba 
and the National Science Teachers Association (NSTA).
    <bullet>  In the U.S, student mastery of STEM subjects is essential 
to thrive in the 21st century economy. As other nations continue to 
gain ground in preparing their students in these critical fields, the 
U.S. must continue to explore a variety of ways to inspire future 
generations. Finding ways to improve STEM education activities beyond 
the scope of the Federal government, including using best practices 
derived from non-federal sources, is key to the future prosperity of 
the Nation.

Background

ExploraVision Competition

    Now in its 19th year, ExploraVision is a science competition that 
encourages K-12 students to work in groups of two to four assisted by a 
teacher and a mentor to simulate real research and development teams. 
Students are asked to research a technology of interest and explore 
what that technology could be like 20 years from now. The technology 
could be something as basic as a water fountain to something as complex 
as nanotechnology. Teams investigate how their visions of technology 
could work and what breakthroughs are necessary to make their ideas 
become reality. Since 1992, more than 287,000 students have competed in 
this hands-on competition, sponsored by Toshiba and the National 
Science Teachers Association (NSTA), which inspires students and fuels 
imagination.
    ExploraVision is designed for students of all interest, skill, and 
ability levels. The competition is open to students enrolled in public, 
private, or home school in the United States and Canada. Students 
compete in four entry categories: Primary Level (Grades K-3), Upper 
Elementary Level (Grades 4-6), Middle Grade Level (Grades 7-9), and 
High School Level (Grades 10-12). Judges rate teams on creativity, 
scientific accuracy, communication, and feasibility of vision. Teams 
are organized into six regional areas of the United States and Canada. 
A judging committee selects 24 teams, one for each grade-level category 
in each of the six regions. All 24 regional winning teams must complete 
a Web site for its future technology and prototype. Out of those 24 
teams, a national judging committee consisting of leading science 
educators, as well as science and technology experts, selects eight 
finalist teams. From those finalists, the judges award four first-place 
and four second-place prize winners. \1\
---------------------------------------------------------------------------
    \1\ Data collected from ExploraVision Web site 
www.ExploraVision.org.

---------------------------------------------------------------------------
Prizes include the following:

    Students

    <bullet>  First Prize (4 teams): $10,000 U.S. Savings Bond for each 
student.
    <bullet>  Second Prize (4 teams): $5,000 U.S. Savings Bond for each 
student.
    <bullet>  National Finalists (8 teams): An expense-paid trip to 
Washington, DC, in June for ExploraVision Awards Weekend for each 
national winning student and his/her parents/guardians.
    <bullet>  Regional Winners: A Toshiba CamileoT Camcorder for each 
student and an awards ceremony for each regional winning team at its 
school where the team will receive a winner's banner, plaque and other 
gifts.
    <bullet>  Honorable Mention (500 teams): A unique prize and 
certificate for each student.
    <bullet>  All Participants: A certificate of participation, entry 
gift and a special discount on Toshiba computer products for every 
student whose team submits a complete entry.

    Coaches and Mentors

    <bullet>  National Finalists: An expense paid trip to Washington, 
DC, in June for ExploraVision Awards Weekend for the coach and mentor 
of each national winning team and a one-year NSTA membership to coaches 
of the national winning teams.
    <bullet>  Regional Winners: A Toshiba CamileoT Camcorder for the 
coach and mentor of each regional winning team.
    <bullet>  All Participants: A special discount on Toshiba computer 
products, certificate of participation and an entry gift for each coach 
and mentor of every team that submits a complete entry.

    Schools

    <bullet>  Regional Winners: A Toshiba laptop for each of the 
schools of the regional winning teams.

Toshiba America, Inc.

    The Tokyo-based Toshiba Corporation is a leading innovator and 
diversified manufacturer and marketer of advanced electronic and 
electrical products, spanning information and communications equipment 
and systems, Internet-based solutions and services, electronic 
components and materials, power systems, industrial and social 
infrastructure systems, and household appliances. Toshiba employs over 
14,000 people in North America. Toshiba America, Inc., is the holding 
company for five Toshiba operating companies in the United States, with 
operations in 13 states and the District of Columbia. \2\
---------------------------------------------------------------------------
    \2\ http://www.toshiba.com/tai/.

---------------------------------------------------------------------------
National Science Teachers Association (NSTA)

    Founded in 1944, the Arlington, Virginia-based National Science 
Teachers Association (NSTA) promotes excellence and innovation in 
science teaching and learning. NSTA's current membership includes more 
than 60,000 science teachers, science supervisors, administrators, 
scientists, business and industry representatives, and others involved 
in science education. NSTA seeks to provide opportunities for 
scientific literacy, excellence in teaching, learning through 
collaboration, and research that will enhance and improve science 
education for all students. \3\
---------------------------------------------------------------------------
    \3\ http://www.nsta.org/.

---------------------------------------------------------------------------
STEM Education and the Federal Government

    A consensus exists that improving STEM education throughout the 
Nation is a necessary condition for preserving our capacity for 
innovation and discovery and for ensuring U.S. economic strength and 
competitiveness in the international marketplace of the 21st century. 
The National Academies Rising Above the Gathering Storm report placed 
major emphasis on the need to improve STEM education and made its top 
priority increasing the number of highly qualified STEM teachers. This 
recommendation was embraced by the House Science, Space, and Technology 
Committee following the issuance of the report and was included in the 
2007 America COMPETES Act. The 2010 America COMPETES Reauthorization 
Act continues this priority.
    Beyond activities authorized in America COMPETES, President Obama 
has called for a new effort to prepare 100,000 science, technology, 
engineering, and math (STEM) teachers with strong teaching skills and 
deep content knowledge over the next decade. As a component of 
achieving this goal, the FY12 Budget Request proposes an investment of 
$100 million through the Department of Education and the National 
Science Foundation (NSF) to prepare effective STEM teachers for 
classrooms across America. This proposal also responds to a 
recommendation by the President's Council of Advisors on Science and 
Technology (PCAST) to prepare and inspire America's students in 
science, technology, engineering, and mathematics. \4\
---------------------------------------------------------------------------
    \4\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1.
---------------------------------------------------------------------------
    In addition, the FY12 Budget Request proposes $90 million for the 
creation of an Advanced Research Projects Agency-Education (ARPA-ED) 
with the mission of driving transformational improvement in education 
technology. \5\
---------------------------------------------------------------------------
    \5\ White House Office of Science and Technology Policy, Winning 
the Race to Educate Our Children, STEM Education in the 2012 Budget, 
p.1.
---------------------------------------------------------------------------
    The President's new ``Educate to Innovate'' campaign leverages 
Federal resources with over $700 million in private-sector resources. 
The goals of the program are to increase STEM literacy so that all 
students can learn deeply and think critically in science, math, 
engineering, and technology; move American students from the middle of 
the pack to top in the next decade; and expand STEM education and 
career opportunities for underrepresented groups, including women and 
girls.
    With specific regard to K-12 STEM education funding beyond what has 
already been identified, the FY12 Budget Request calls for $206 million 
for the Department of Education's proposed Effective Teaching and 
Learning in STEM program; $60 million (28 percent) increase for NASA's 
K-12 education programs; $300 million for an ``Investing in 
Innovation'' program (expansion of a Department of Education American 
Reinvestment and Recovery Act program); and $185 million for a new 
Presidential Teaching Fellowship program.
    The FY12 Budget Request devotes $3.4 billion to STEM education 
programs across the Federal government. \6\ The 2010 America COMPETES 
Reauthorization Act called for the creation of a National Science 
Technology Council (NSTC) Committee on STEM Education to coordinate 
federal STEM investments. The first-year tasks of the committee are to 
create an inventory of Federal STEM education activities and develop a 
five-year strategic Federal STEM education plan. The inventory, as well 
as a similar Government Accountability Office (GAO) survey requested by 
the Committee on Education and Workforce, is currently underway and 
results are expected before next year.
---------------------------------------------------------------------------
    \6\ White House Office of Science and Technology Policy,Innovation, 
Education, and Infrastructure: Science, Technology, STEM Education, and 
21st Century Infrastructure in the 2012 Budget, p. 2.
---------------------------------------------------------------------------
    The GAO survey is an update of one last prepared by the Office in 
2005. In a 2007 inventory of Federal STEM education programs, the 
Academic Competitiveness Council (ACC) identified 105 programs and 
approximately $3.12 billion in FY06 appropriated funds across the 
Federal agencies for STEM education at all levels, including 24 
programs designed for K-12 students funded at approximately $574 
million. However, the ACC set parameters on its inventory, limiting the 
programs for inclusion to those ``primarily intended to provide support 
for, or to strengthen, science, technology, engineering, or mathematics 
education.'' As a result, the ACC inventory excluded many educational 
activities supported by the Federal R&D mission agencies that are 
managed through larger research programs and offices, including major 
research facilities, and that do not show up as separate line items in 
the budget.
    In the 112th Congress, the Science, Space, and Technology Committee 
will continue to hold oversight hearings and briefings on STEM 
education activities across the Federal government and will closely 
monitor the scope and findings of both the NSTC and the GAO Federal 
STEM education inventories.
    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order, and I say to you a very cheerful 
good morning, and you have a right to say good morning back if 
you want to.
    I want to welcome you to today's hearing. It is entitled 
``STEM Education in Action: Learning Today . . . Leading 
Tomorrow.'' And by gosh, we have a lot of leaders in front of 
us, and every one of us from my right to my left and all of us 
here are very proud of all of you. I will recognize myself 
first for five minutes for an opening statement, and then we 
will recognize Ms. Johnson, who is the leader of the Democratic 
participants here to my right, and Ms. Johnson and I are not 
only close here physically, our districts are separated by a 
thin line. We work together, and I have known her for many, 
many years and always admired her.
    I would like to welcome everyone here today for what is the 
first in a series of STEM Education in Action hearings. The 
purpose of these hearings will be to highlight various science, 
technology, engineering, and math--that is the STEM--education 
activities across the Nation, their role in inspiring and 
educating future generations, and their contribution to our 
economic prosperity.
    The Federal Government is investing several billions of 
dollars on STEM education activities, primarily at the 
Department of Education and the National Science Foundation, 
but also in every agency under the Committee's jurisdiction. 
However, there are numerous companies, foundations, nonprofit 
organizations and other groups who are doing their own part, 
and on their own dime, to successfully promote STEM education 
and inspire our next generation of scientists, engineers, 
entrepreneurs and our leaders.
    Today's hearing focuses on one of those successful and 
impressive initiatives, the Toshiba/National Science Teachers 
Association ExploraVision Competition. This competition is open 
to students in grades K-12. Students are asked to research any 
science technology of their choice and explore what that 
technology will look like in 20 years. Our witnesses today 
represent four of the eight winning teams, who as a part of 
their prize, received an expense-paid trip to Washington, DC, 
and we welcome you here and we are happy that you received 
that. I congratulate and all of us congratulate all of the 
teams for your extraordinary accomplishment of first or second 
place in this national science competition that attracted over 
4,000 entries. All of you are an inspiration to students, 
teachers and parents all over and all around this country from 
one ocean to the other.
    From 12:30 to 2:30 today, all teams will have their 
projects on display downstairs in the Rayburn Foyer. I 
encourage all of my colleagues to stop by and spend some time 
talking to these incredible students about their impressive 
award-winning projects.
    This Nation has always been the leader in innovation, and 
our children and grandchildren, like the ones in front of us 
today, are the key to our future success. I look forward to 
getting to know more about each of you, why you were moved to 
do the project you chose, and what all of you, students, 
parents and teachers, learned by participating in this 
competition.
    [The statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall
    I would like to welcome everyone here today for what is the first 
in a series of STEM Education in Action hearings. The purpose of these 
hearings will be to highlight various Science, Technology, Engineering, 
and Math (STEM) education activities across the Nation, their role in 
inspiring and educating future generations, and their contribution to 
our economic prosperity.
    The Federal government is investing several billions of dollars on 
STEM Education activities, primarily at the Department of Education and 
the National Science Foundation, but also in every agency under this 
Committee's jurisdiction. However, there are numerous companies, 
foundations, non-profit organizations, and other groups who are doing 
their own part, and on their own dime, to successfully promote STEM 
education and inspire our next generation of scientists, engineers, 
entrepreneurs, and leaders. Today's hearing focuses on one of those 
successful and impressive initiatives, the Toshiba / National Science 
Teachers Association (NSTA) ExploraVision Competition. This competition 
is open to students in grades K-12. Students are asked to research any 
science technology of their choice and explore what that technology 
will look like in 20 years. Our witnesses today represent four of the 
eight winning teams who, as part of their prize, received an expense-
paid trip to Washingon, DC.
    Congratulations to all of the teams for your extraordinary 
accomplishment of first or second place in this national science 
competition that attracted over 4,000 entries. All of you are an 
inspiration to students, teachers, and parents around the country.
    From 12:30 to 2:30 today, all teams will have their projects on 
display downstairs in the Rayburn Foyer. I encourage all of my 
colleagues to stop by and spend some time talking to these incredible 
students about their impressive award-winning projects.
    This Nation has always been the leader in innovation, and our 
children and grandchildren, like the ones in front of us today, are the 
key to our future success. I look forward to getting to know more about 
each of you, why you were moved to do the project you chose, and what 
all of you--students, parents, and teachers--learned by participating 
in this competition.

    Chairman Hall. At this time I recognize Ms. Johnson for her 
opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all. I want to start by congratulating the students 
who are here today and welcoming you and your teachers, parents 
and mentors to the Committee. I was reading about some of the 
winning science fair projects, and I must say that I am truly 
impressed by all of the outstanding work you have done, and I 
know that you are proud.
    Unfortunately, there are too many students across the 
country who do not have the opportunities to participate in 
inspiring STEM activities or to receive a high-quality STEM 
education. The most recent National Assessment of Educational 
Progress, the NAEP, study found that less than half of our 
Nation's students are demonstrating solid academic performance 
and proficiencies in science, and this is a startling statistic 
when you consider that the many recent experts report warning 
that our competitive edge will be lost if we do not vastly 
improve our STEM education in this country.
    No one entity can solve this problem alone. There is a role 
for all the key shareholders and stakeholders, including 
Federal and State governments, local school districts, higher 
education, informal education organizations and industry. I am 
pleased to hear today about the work Toshiba has done to 
support STEM education through this ExploraVision competition, 
and there are many other companies. My hometown company, Texas 
Instruments, is one of them, Exxon Mobil and also AT&T, so I 
know that there are many that help to participate.
    I also want to emphasize the importance and the unique role 
of the Federal Government in improving STEM education. Many 
Federal STEM programs, including those supported by the 
National Science Foundation and the Department of Education, 
are really making a difference in our universities, our 
community colleges, and K-12 schools across the Nation. There 
are also many valuable programs being funded through other 
federal agencies, such as NASA, NOAA, NIST, EPA and the 
Department of Energy. These agencies are filled with thousands 
of scientists and engineers who make a difference in their own 
communities and for students across the country. As working 
STEM professionals, the real-life work that they do using STEM 
is so inspiring to our young people.
    But the Federal role is more than that. The National 
Science Foundation is the premier STEM education research 
organization in the country. For decades, the NSF has been a 
leader in improving our collective understanding of how 
students learn, and how we can develop the most effective and 
inspiring curriculum and train the most effective and inspiring 
teachers. This isn't about the Federal Government taking over 
curriculum or teacher certification. It is about researchers 
contributing their deep expertise to making sure that our 
teachers are well prepared and our students are really 
learning. I would be interested in hearing from the teachers on 
the panel today about your own training, and how they have 
helped you to implement your best practices in teaching STEM in 
your own classrooms.
    While today's hearing is about a non-Federal program, there 
was some discussion in the hearing charter about Federal 
programs and spending in STEM, so I just wanted to make a 
couple of comments about that. I hope you are not too quick to 
judge based on numbers alone. The OSTP, in response to the 
COMPETES Act, is leading an effort to inventory current 
programs across the government to improve coordination and 
develop priorities going forward. Many of the individual 
agencies are also responding to recommendations from outside 
advisory groups and restructuring their education programs and 
management. While this committee should continue to be vigilant 
in ensuring that our limited STEM education budgets are being 
used as wisely as possible, as we have been for many years, I 
want to express my own confidence in the coordination efforts 
currently underway. I believe we should let them play out for 
the next several months before we rush to judgment about what 
we should or should not be spending on STEM education. And 
finally, I hope that the committee will have the opportunity to 
review the OSTP report and other agency STEM efforts in 
hearings with administration officials.
    Today, though, I look forward to hearing from these student 
winners about what initially sparked their interest in STEM, 
and what role their teachers, parents and other mentors have 
played in helping them to reach their goals. This is an issue 
that I take seriously, and you can check my record. I have been 
interested in it and talking about it and working at it since 
1974. This is an issue that is a serious one. We have an 
education crisis in this country, and there is a very real 
possibility that we will lose our competitive edge and that our 
children will no longer have the opportunities that we had if 
we do not remain committed to investing in and improving STEM 
education.
    So thank you again for being here today and I look forward 
to this very interesting discussion. I yield back.
    [The statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Good morning and thank you, Chairman Hall, for holding this 
hearing. I want to start by congratulating the students who are here 
today and welcoming you and your teachers, parents, and mentors to the 
Committee. I was reading about some of your winning science fair 
projects, and I must say that I am truly impressed by all of the 
outstanding work you have done. You should all be very proud.
    Unfortunately, too many students across the country do not have 
opportunities to participate in inspiring STEM activities or to receive 
a high-quality STEM education. The most recent National Assessment of 
Educational Progress (NAEP) study found that less than half of our 
Nation's students are demonstrating solid academic performance and 
proficiency in science. This is a startling statistic when you consider 
the many recent expert reports warning that our competitive edge will 
be lost if we do not vastly improve STEM education in this country.
    No one entity can solve this problem alone. There is a role for all 
the key stakeholders, including federal and state governments, local 
school districts, higher education, informal education organizations, 
and industry. I'm pleased to hear today about the work Toshiba has done 
to support STEM education through the ExploraVision competition.
    But I also want to emphasize the important and unique role ofthe 
Federal government in improving STEM education. Many federal STEM 
programs, including those supported by the National Science Foundation 
and the Department of Education, are making a difference in 
universities, community colleges, and K-12 schools across the Nation. 
There are also many valuable programs being funded through other 
federal agencies, such as NASA, NOAA, NIST, EPA, and the Department of 
Energy. These agencies are filled with thousands of scientists and 
engineers who can make a difference in their own communities and for 
students across the country. As working STEM professionals, the real 
life work that they do using STEM is so inspiring to our children.
    But the federal role is more than that. The National Science 
Foundation is the premier STEM education research organization in the 
country. For decades, NSF has been a leader in improving our collective 
understanding ofhow students learn, and how we can develop the most 
effective and inspiring curriculum and train the most effective and 
inspiring teachers. This isn't about the Federal Government taking over 
curriculum or teacher certification. It is about researchers 
contributing their deep expertise to making sure our teachers are well 
prepared and our students are really learning. I would be interested in 
hearing from the teachers on the panel today about their own training, 
and how they have implemented best practices in teaching STEM in their 
own classrooms.
    While today's hearing is about a non-federal program, there was 
some discussion in the hearing charter about federal programs and 
spending in STEM, so I just wanted to make a couple of comments about 
this. I hope we are not too quick to judge based on numbers alone. 
OSTP, in response to the COMPETES Act, is leading an effort to 
inventory current programs across the government and to improve 
coordination and develop priorities going forward. Many ofthe 
individual agencies are also responding to recommendations from outside 
advisory groups and restructuring their education programs and 
management. While this committee should continue to be vigilant in 
ensuring that our limited STEM education budgets are being used as 
wisely as possible, as we have been for many years, I want to express 
my own confidence in the coordination efforts currently underway. I 
believe we should let them play out for the next several months before 
we rush to judgment about what we should or should not be spending on 
STEM education. Finally, I hope that the committee will have the 
opportunity to review the OSTP report and other agency STEM efforts in 
hearings with administration officials.
    Today, though, I look forward to hearing from these student winners 
about what initially sparked their interest in STEM, and what role 
their teachers, parents, and other mentors have played in helping them 
to reach their goals. This is an issue that I take very seriously. We 
have an education crisis in this country, and there is a very real 
possibility that we will lose our competitive edge and that our 
children will no longer have the opportunities that we had if we do not 
remain committed to investing in and improving STEM education. Thank 
you again for being here today and I look forward to an interesting 
discussion.

    Chairman Hall. The gentlelady from Texas yields back.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    I ask unanimous consent that the gentleman from Texas, Mr. 
Hinojosa, and the gentleman from Michigan, Mr. Peters, be 
allowed to sit with the Committee and participate in the 
hearing. Is there objection? The chair hears none.
    At this time I would like introduce our panel of witnesses. 
I yield two minutes to my good friend and fellow Texan, Mr. 
Hinojosa, to introduce our first team.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    As the representative from the 15th Congressional district 
of Deep South Texas, it is truly an honor for me to welcome the 
Discovery Montessori School of Edinburg, Texas, to the House 
Science, Space, and Technology Committee. As the Ranking Member 
of the Subcommittee on Higher Education, we work closely with 
this Committee on Science and Space and Technology because 
together we hope that by 2020 we can be able to generate and 
accomplish a goal that was set out by the President, and that 
was to have an additional 100,000 engineers here in our 
country.
    I am delighted to be here to congratulate all the students 
being recognized from throughout the country but especially I 
congratulate the students, teachers, parents, coaches and 
administrators of the Discovery Montessori School for winning 
first place for grades K through three of the 2011 Toshiba/NSTA 
ExploraVision Science Competition. What an extraordinary 
accomplishment. Their winning project, Intelligent Streets, 
reduces intersection accidents by using smart translucent film 
installed on windshields that receive signals from either 
traffic lights or satellites. This clearly demonstrates that 
students in the Rio Grande Valley of south Texas can become the 
scientists and the innovators of tomorrow.
    We in Texas are extremely proud of the Discovery Montessori 
School's dedication to academic excellence and for creating a 
learning environment for children that fosters the development 
of high-order thinking skills, scientific discovery, 
exploration and creativity. Today we are fortunate to have 
three extraordinary individuals with us from that school. Pablo 
Marcelo Vidal, soon to be a fourth grader, is a resident of 
McAllen, Texas. We also have the pleasure of saying that 
Marcelo started school at the age of three at the Discovery 
Montessori School. He is extremely passionate about science and 
math and belongs to the Bronx Aquatics swimming team. This 
impressive young man is a role model for his peers. We also 
have Veronica Rego Martinez, the team's coach, who is a 
graduate of the University of Texas at Brownsville and serves 
as the primary and lower elementary Montessori teacher. Ms. 
Martinez has a profound love for teaching young children. Dr. 
Karen Lozano, Pablo's mother, serves as Julia Vechero Endowed 
Chair of the Mechanical Engineering Department at the 
University of Texas Pan America. Dr. Lozano earned a doctorate 
in mechanical engineering and material science from one of our 
Nation's best, Rice University in Houston, and has received 
numerous awards for her extensive research and exceptional 
teaching. Rita Caldwell from the National Science Foundation 
visited at UT Pan America and praised her as one of the best 
professors in the country.
    We welcome all of you to today's hearing and thank you, Mr. 
Chairman, for allowing me this opportunity.
    Chairman Hall. I thank you, sir, and you yield back your 
time?
    Mr. Hinojosa. Yield back.
    Chairman Hall. I say to those out there who have Mr. 
Hinojosa as your Congressman, you are very lucky. He represents 
his district well and we are proud to have him as we are you, 
and Jack, we are pleased that you brought your mother with you 
today, by golly. Actually, our second witness, Mrs. Brenda 
Conwell-Dudley, accompanied by her son, Jack, they are 
representing the first-place National winning team for the 
fourth through sixth grade age group. Their winning project, 
the Heads Up helmet, is a military helmet designed to protect 
soldiers on the battlefield. Joining Jack and his mom today are 
his teammates, Abby Porter and Jovia Ho from Tolbert Elementary 
School and Sydney Dayyani from Belmont Ridge Middle School. 
Jack is home-schooled and attends Virginia Virtual Academy. We 
also welcome the team's coach from the academy, Mrs. Penni 
Harrison.
    I now yield two minutes to the gentleman from Michigan, Mr. 
Peters, to introduce the third team of witnesses.
    Mr. Peters. Thank you, Mr. Chairman.
    It is my pleasure to be here today to introduce two of my 
constituents, Claudia Cooper and her coach and teacher, Amy 
Attard. Claudia is an outstanding student at West Hills Middle 
School in West Bloomfield, Michigan, and is joining us today 
because she is part of a winning team in the ExploraVision 
Science Competition. Her teammate, Samantha Tarnopol, is also 
here as well as teacher Russ Purdy, and I would like to welcome 
them to this hearing as well.
    The ExploraVision challenges students to envision new 
technologies that will make our society healthier and safer. 
Claudia's team designed a surgically implantable disc called 
the Intra-Trachea Breathing System. The disc will improve the 
quality of life for millions of Americans who suffer from 
breathing problems and debilitating respiratory conditions. 
Claudia's work demonstrates how the application of scientific 
concepts can improve the quality of our life and meaningfully 
impact our society. In addition to her scientific pursuits and 
excellent academic achievements, Claudia plays three sports and 
the oboe, participates in theater and devotes time to 
charitable pursuits such as working with children with special 
needs.
    Amy Attard is in her sixth year teaching seventh grade at 
West Hills Middle School. She holds an M.A. in educational 
technology and a B.S. in elementary education from the 
University of Michigan-Dearborn. In addition to teaching 
science, she is actively involved with extracurricular life in 
West Hills and is committing to promoting very positive culture 
and morale within the school. She sponsors and mentors students 
in the Student Leadership Club, which organizes community 
service projects and also leads the Count Me In Club, which 
teaches anti-bullying intervention strategies and self-esteem 
building. She serves as the grade-level team leader and is a 
member of the school's budget, leadership and social committee.
    When I speak to school groups back home, I always try to 
stress the importance of our young people in pursuing careers 
in science and engineering fields. It is certainly important 
for their future but it is also important for our country's 
future, and we should be doing all that we can to encourage our 
young people's interest in these careers. Claudia and Samantha 
are great role models for their peers, and I wish them the best 
in their future scientific endeavors. Claudia and Amy, thank 
you so much for testifying here today, and thank you, Chairman 
Hall, Ranking Member Johnson, and my Michigan colleague here, 
Mr. Clarke, for allowing me to stop by the Committee and 
welcome West Hills Middle School. Thank you for being here. I 
yield back.
    Chairman Hall. And I thank you for yielding back and thank 
you for that good visit with these youngsters. I know you are 
proud of them and I know they are proud of you.
    Our fourth witness is Ms. Ann Manwell, accompanying her 
student, Miss Alison Reed, from Stuyvesant High School in New 
York. They are representing the 10th to 12th grade age group 
with their second-place winning project, 3Drenal, a kidney bio-
printer. We would also like to recognize Alison's teammates, 
David Kurkovskiy and Norine Chan.
    Typically, I would now recognize our first witness, but 
before I do, I also would like to take a moment to recognize 
the other four winning teams that are joining us today and who 
will also be showcasing their winning projects in the Rayburn 
Foyer following today's hearing. The Solar Tree Team from 
Countryside Montessori Charter School in Land O Lakes, Florida; 
the Blindsight Team from Plainview Old Bethpage Middle School 
of Plainview, New York; the Subway Smart System Team from 
Horace Mann School in the Bronx, New York; and the Bionic 
Auditory Prosthesis team from Hopewell Valley Central High 
School. You are all to be congratulated and commended for your 
hard work and impressive projects. We look forward to visiting 
more with you after the hearing.
    Before I ask unanimous consent that your names be made a 
part of the record, let me just tell you that you must be the 
cream of the crop, the leaders, and it might be of some comfort 
to you to know that your Chairman, I am from Texas, we have 
every type of leader here. Ms. Johnson is a leader in the 
medical field. She is outstanding in the nursing field. We have 
all types of folks that are skilled but we look to you all to 
give us testimony to write our record, and what you say here 
will be recorded and it will be read 100 years from now and 
they will look back on this fine young group that came here. It 
may give you some ease to be here to know that your chairman 
was such a bad student, one semester I made four Fs and a D, 
and my dad whipped me for spending too much time on one 
subject.
    I ask unanimous consent that their names be made a part of 
the record, all of you. As our witnesses should know, spoken 
testimony is limited to five minutes, so we won't just hold you 
to that. Try to stay as much as you can. We are so honored to 
have you here, we will go over, or if you want to give us back 
a little time, we will accept it. After which the Committee 
will have five minutes each to ask questions.
    I now recognize the first witness duo, Dr. Karen Lozano and 
Master Pablo Vidal. I now recognize Mrs. Brenda Conwell-Dudley 
and Master Jack Dudley.

                 STATEMENT OF DR. KAREN LOZANO,

         PROFESSOR AT UNIVERSITY OF TEXAS PAN AMERICAN,

            PARENT TO PABLO VIDAL, AND MENTOR TO THE

           I.STREETS (INTELLIGENT STREETS) DISCOVERY

             MONTESSORI SCHOOL TEAM, MCALLEN, TEXAS

    Dr. Lozano. Thank you very much. Thank you for the 
introduction. Congressman Hinojosa, thank you for the 
introduction.
    As Congressman Hinojosa mentioned, I am a Professor at the 
University of Texas Pan American, and growing myself in a field 
that is underrepresented, you know, by females. I was the fifth 
woman to get a degree in 25 years at my university had existed 
at the time in mechanical engineering, and when I went to Rice 
I also realized that I was only the fifth woman to get a 
doctoral degree, you know, in mechanical engineering. So I knew 
how engineering wasn't something that kids will look after.
    So I started doing a lot of community service to try to 
encourage, you know, engineering with kids. So I was very happy 
when Jessica Vera, one of the former teachers, asked me to 
participate in ExploraVision. ExploraVision is just very well 
prepared. You know, the guidelines and everything is just an 
absolute, you know, program, you know, just an amazing program, 
and the kids go from--you know, they learn teamwork, history, 
ethical issues, they learn technology, and it is amazing how 
when I sit with them and I say okay, come up with ideas, you 
know, you need to think of something that, you know, will make 
the world better or will save people's lives or, you know, will 
help people that are suffering. You know, they come up with 
amazing ideas that at our level as adults sometimes we don't 
think of. You know, we can find all kinds of obstacles why that 
is not possible.
    So once they find an idea that they agree that it is 
possible, then we move into, you know, okay, let us study the 
present technology, let us study the history, and the future 
technology. You know, I explain to them, you know, concepts on, 
you know, how we think, you know, it is possible. Sometimes 
maybe I even think, you know, that it might not work, you know, 
but we have to explain the technology behind the idea, you 
know, to them, and it is just amazing how they learn. Like you 
can ask him about the electromagnetic spectrum and, you know, 
he goes oh, you know, the radio waves. You know, it is just 
amazing how they grasp, you know, the ideas and how the whole 
program, you know, helps them develop a desire or a passion to 
pursue science and to learn about what is around them, you 
know, go around and just think, you know, what is it they can 
improve, how can they be--how can they develop a technology 
that will benefit society. So they are engineers, and I guess 
we are all born engineers. You know, we all played with Legos. 
But I have seen, you know, working with K-12 how like around 
fifth grade they start losing that. You know, you get great 
ideas up to fifth grade and then they kind of, you know, start 
tapering down and it kind of goes down, and I have implemented 
ExploraVision guidelines within my college classes, the senior-
level classes, and I ask the students the same thing. I say you 
are going to follow ExploraVision guidelines and this is your 
final project, and they have to come up with whatever class we 
are doing, if it is plastics or nanotechnology or whatever the 
topic of the class is, they have to come up with a project, you 
know, that is nonexistent that could be here in 20 years from 
now, and it is amazing out of the many, many, many projects I 
have seen, the little ones, they still have brighter ideas, you 
know, than my college students. Of course, they do an awesome 
job explaining the technology, you know, in technical terms and 
all of that, but as far as the idea, you know, I guess the 
younger the kids, you know, the ideas are, you know, far 
better.
    So we can't afford to lose that creativity, so within the 
school it is a good idea to give them that freedom to explore, 
you know, give them that--you know, just maybe implement 
something like ExploraVision, you know, within the classes. You 
know, the teachers can implement something related to 
ExploraVision because it allowed the kids to, you know, 
innovate. It allowed the kids to explore, and it keeps them 
engaged, you know, in finding out. Because once they learn that 
they can look around and find something that could work better, 
you know, that is a process that they will keep on, you know, 
for the rest of their lives.
    One of the things that I sponsored several years ago, now 
the kids are going into high school, they were fourth graders, 
and all of them are going into the science area. They are going 
into sci-tech, you know, most of the kids. So it really leaves 
a very good impression on themselves, you know, and they want 
to keep on doing it. Next year they are going to try again to 
do the ExploraVision competition, the high school kids.
    So I think it is a great model that could be followed for 
science education. Thank you.
    [The statement of Dr. Lozano follows:]
  Prepared Statement of Dr. Karen Lozano, Professor At University Of 
Texas Pan American, Parent to Pablo Vidal, And Mentor To The I.Streets 
 (Intelligent Streets) Discovery Montessori School Team, Mcallen, Texas
    Good morning, Committee Members and ExploraVision winners. My name 
is Karen Lozano. I am a professor of mechanical engineering at the 
University of Texas Pan American, and the mentor and parent of one of 
the team members of the K-third first place national winners.
    As I started my college years, I realized that engineering was not 
a popular major, even less among girls, I was the fifth woman to 
graduate with a mechanical engineering degree in the 25 years that my 
university had existed. Pursuing later an M.S. and Ph.D. degree at Rice 
University and joining later the faculty at UTPA, I kept on realizing 
how little people knew about engineering and how severe the stereotypes 
were for girls. I was blessed that my mom supported me when deciding to 
study engineering and was blessed to have a Ph.D. advisor that was 
highly committed to K-12 education; therefore, it became natural to me 
that the only way to change perceptions was to be active in our 
community and be there to talk to kids and parents as well. At least 
once a month I give magic and science shows, talk to parents of middle 
and high school students, participate in science fair judging or offer 
lab tours to K-teachers. I have seen how important these activities can 
be and have also observed interesting patterns in science attraction of 
kids.
    Being involved in these activities, I was very attracted to 
participate in ExploraVision when my older son's teacher brought it to 
my attention back in 2006. I read the rules and visited the Web site 
and observed how many of the winning ideas expressed by kids 10-15 
years ago were now in the market. Miss Jessica Vera and myself worked 
with the first team of third graders; I was amazed how kids could come 
up with great ideas and when guided into the technology behind their 
ideas, they learned and grasped technical concepts otherwise not taught 
until later in high school/college level.
    In 2006, the team won honorable mention; in 2007 now the kids in 
fourth grade, they became first place national winners, the experience 
was even better, now the kids not only learned about a technology but 
needed to communicate it verbally in front of an audience. This ability 
has proven extremely beneficial for these kids now starting high school 
next fall. In 2008, a different team of students (fifth and sixth 
graders) won second place national award. In 2009 I mentored two teams, 
with ages ranging from first to sixth grade, and this year one team of 
third graders.
    Besides being a mentor I have incorporated ExploraVision rules in 
my college classes. The ability to be creative while incorporating 
scientific knowledge is one of the basic definitions of engineering; 
therefore it has worked very well in my upper division classes. The 
ExploraVision competition is extremely well designed and at a young age 
allows the kids to ``dream,'' at a college age allows kids to develop 
technologies based on their current learned material, as I asked them, 
for example, in a polymer engineering class, to look for applications 
where polymers are not used yet and evaluate their implementation 
according to the ExploraVision rules or in the nanotechnology class, to 
develop a new application.
    Let me explain the methodology that we follow when preparing for an 
ExploraVision competition. The kids, teacher and myself meet for about 
five months, one afternoon a week at a local library room (to avoid 
distractions); the first four to five meetings are basically to come up 
with an idea, it is interesting to find out how their ideas are quite 
novel. Many of those already being researched or coming to the market 
though the kids were not aware of, therefore for them were novel ideas, 
and I have been very impressed how if they are encouraged or motivated 
to be creative they are full of surprises. This ability is many times 
lost in school age as time passes and kids stop play-pretend. It is 
very important to keep sparking technological creativity. How can 
society be benefitted by one of your ideas? A question that school age 
kids can be asked every year. After voting for an idea, students were 
asked to choose areas that they were most interested in working on 
though all of them needed to research all areas, as you are probably 
aware of. The ExploraVision sections are (I will use the current 
winning project I.STREETS as an example; in this project they decided 
to incorporate traffic lights within the windshield of the car):

    <bullet>  Present technology; students researched how traffic 
lights work.
    <bullet>  History: learned about the history of traffic lights.
    <bullet>  Future technology: this area is where they explained how 
they envision their idea to work in the future though also need to 
explain it with some science principles; this is where the help from a 
mentor, especially for the K-six age groups, comes into play. In this 
case, as a mentor, I explained to them the electromagnetic spectrum 
(infrared waves, visible waves, radio waves), explained to them about 
smart films that could respond to a signal with colors; it is 
surprising how they grasp the information right away and then they are 
able to explain it.
    <bullet>  Breakthroughs: they basically explained why their 
technology is not possible now, besides other aspects in their case is 
because we do not have yet a translucent film that could respond to a 
signal in only red, yellow and green colors in order to be glued 
between the windshield glass.
    <bullet>  Design process: the kids basically do this section on 
their own, explaining how they worked, when they met, and what other 
ideas they thought of.
    <bullet>  Consequences: here students find that all they invent 
will always have positive and negative results. They can also do this 
completely on their own and they come up with important ideas.
    <bullet>  References: they learned that every time they research 
something they have to give credit to the one that had the idea first.

    As you can see, the ExploraVision competition is a project that not 
only encompasses technological creativity but encourages students to 
think beyond the technology and incorporate within the learning 
process, team work, history, entrepreneurship, and ethical issues 
(consequences) among other issues. Even though one student is the one 
that usually has the idea first, carrying out the project allows for a 
full development of the idea from conception to implementation; 
therefore, at the end all of them are considered inventors of the idea.
    As you can tell, I am particularly impressed with the ExploraVision 
competition and have enjoyed working with all students since 2006. They 
usually have formed the team based on friendship, not necessarily they 
have been from the same school and actually if it is not carried out as 
a school project has proven beneficial to meet outside of school at a 
local library. I personally do not think this project is a matter of 
resources for the school; there are no costs that participants incur 
rather than their time. I am aware that some schools do it as part of a 
class project and I believe that is a great idea and from grades K-six 
could be incorporated within their curriculum where the different 
sections will be carried out during different courses (history, 
science, cultural). For the older age group kids, they can do it in the 
science class as a semester project. Just by asking the questions about 
inventing something, students will go around their life looking at what 
can be improved one way or another; you encourage them to keep their 
creative nature (as all kids are born engineers, always looking around, 
building and connecting dots) and problem solving skills rather than 
teach them to wait for information to be provided and expecting them 
only to learn what they are asked to learn. When kids are given the 
opportunity to explore through a project like ExploraVision they can 
surprise us greatly. One of the other winning teams that I had the 
pleasure to work with where they invented a spray that when placed in 
the tongue changes the taste buds so broccoli could taste as chocolate 
and sweets will taste as broccoli; it was, as I-Streets and the other 
projects, very interesting.
    As for parents' and teachers' participation, I believe their role 
is extremely important, as I always tell my graduate and undergraduate 
students when we are invited as judges for science school fairs of 
young kids, we will find projects that clearly you can tell that 
parents have been involved and that is absolutely great as long as the 
child can explain what they did and is excited about it. Parent 
participation is definitively very important and has proven vital for 
student success in academics, sports, arts, etc.

    Chairman Hall. I congratulate you. You were right on the 
dot, Five minutes.
    Now, Jack, is it okay with you if I recognize your mom? 
Okay. Brenda Conwell-Dudley, we recognize you for five minutes.

            STATEMENT OF MRS. BRENDA CONWELL-DUDLEY,

  PARENT TO JACK DUDLEY AND MENTOR TO THE HEADS UP!, VIRGINIA 
            VIRTUAL ACADEMY TEAM, LEESBURG, VIRGINIA

    Mrs. Conwell-Dudley. Good morning, Chairman Hall, Ranking 
Member Johnson, Members of the Committee and to all the 
finalists, teachers, mentors and organizers of the Toshiba/NSTA 
ExploraVision National Science Competition. On behalf of our 
sponsoring school, the Virginia Virtual Academy, our coach, 
Mrs. Penni Harrison, and our team, I would like to thank the 
Committee for inviting us to this hearing.
    This is my second year as an ExploraVision team mentor for 
the fourth through sixth grade age group. I heard about 
ExploraVision from a mother at one of my son's flag football 
practices about two years ago. Her son Joshua was a player on 
the team, was critically allergic to many foods and much of his 
surroundings. He had actually flatlined in an emergency room 
that summer and had been brought back to life using intubation 
without anesthesia after one particularly bad allergic 
reaction. He was nine years old. He was being treated at the 
National Institutes of Health in Bethesda for his condition, 
and while receiving treatment at the NIH, Joshua met another 
young boy named Colby Tomasello. Colby is a member of the 2009 
ExploraVision second-place national winning team and he and his 
teammates designed an EpiWatch. It is a small, wearable, 
computerized watch that contains special codes and microneedles 
that instantly deliver painless doses of epinephrine when the 
wearer suffers an allergic reaction.
    After hearing about Colby's project and after visiting the 
ExploraVision web site, I was so impressed by what young 
children could invent that if the opportunity ever arose I 
promised myself that I would encourage my son to participate. 
Not more than a week later, his school posted a notice in the 
student newspaper that they would be sponsoring teams for the 
first time. I immediately asked my son about participating. He 
agreed, and invited three of his friends from the fifth grade 
to join. His 2010 team designed a food poisoning detection 
device, and it was lightweight, portable and could be used to 
detect dangerous pathogens in food.
    Now we would like to present background and information on 
our team and our project for Members of the Committee. Our team 
is comprised of four students who came to know each other 
through swimming. An important distinction with this year's 
team is that our four students represent three different 
schools. Jack was home-schooled using Virginia Virtual 
Academy's online sixth-grade public school program. Abby Porter 
and Jovia Ho attend fifth grade at Tolbert Elementary School in 
Leesburg, and Sydney Dayyani attends sixth grade at Belmont 
Ridge Middle School in Lansdowne. I would like to take a moment 
to thank the Virginia Virtual Academy for sponsoring our team 
and for giving us an unparalleled opportunity to work together: 
male and female students, elementary and middle school 
students, home-schooled and brick-and-mortar public school 
students. I think our team represents the best of the 
collaborative spirit, and as we all know, collaboration in the 
field of science is how society will find solutions to the 
complex and very serious problems that confront us as a Nation.
    Starting last September, our team began meeting every week 
for two hours. The team read news articles and news magazines 
to become familiar with current events and advances in science 
and technology. The team brainstormed and discussed multiple 
ideas over several weeks. The team communicated with our coach, 
Mrs. Harrison, using Illuminate Lives Web conferencing program. 
My son frequently uses the program for his online schooling, 
and it proved to be a great resource for our science team too.
    Our team brainstormed several projects, and then Jack saw 
the picture of Specialist Robert Warren in the Washington Post. 
Specialist Warren is a soldier who suffered traumatic brain 
injury from an IED while serving in Kandahar, Afghanistan, in 
May 2010. Jack selected the idea of creating a helmet that 
would protect U.S. soldiers from traumatic brain injury due to 
roadside bombs with a device the team called the Heads Up 
helmet. The team's design features overlapping polyethylene 
plates, sophisticated heat and air-pressure sensors, bullet--
and shrapnel--stopping gels, and a 360-degree neck collar that 
inflates to protect the brain and neck in case of a bomb blast.
    The team further decided that they would take the proposed 
technology from the battlefield to the playing field in 20 
years or less to help prevent the growing number of concussions 
in children and athletes with a device called the Heads Up 
headgear.
    Our team has learned a lot about working on an 
interdisciplinary project. They have learned how to organize 
and present their knowledge more effectively, and as a result, 
they have sharpened their communication skills. I am hopeful 
that participation in this competition will ignite an interest 
for members of our team in STEM-related fields but I know that 
they have at the very least developed a better understanding of 
the world around them, and I would like to thank the Toshiba 
Corporation for sponsoring the competition and the National 
Science Teachers Association for administering this event. 
Thank you very much.
    [The statement of Mrs. Conwell-Dudley follows:]
Prepared Statement of Mrs. Brenda Conwell-Dudley, Parent to Jack Dudley 
 And Mentor to the Heads Up! Virginia Virtual Academy Team, Leesburg, 
                                Virginia
    Good morning to Members of the Committee and to all of the 
finalists, teachers, mentors, and organizers of the Toshiba/NSTA 
ExploraVision National Science Competition. On behalf of our sponsoring 
school, the Virginia Virtual Academy, our coach, Mrs. Penni Harrison, 
and our team, I would like to thank the Committee on Science, Space, 
and Technology for inviting us to this hearing. This is my second year 
as an ExploraVision science team mentor for the fourth through sixth 
grade age group; I mentored a regional winning team in 2010, and I am a 
mentor for the first place winning team in 2011. I would like to 
describe my motivation for participating in ExploraVision's program.
    I heard about ExploraVision from a mother at one of my son's flag 
football practices, in the fall of 2009. Her son, Joshua, a player on 
the team, was critically allergic to many foods and much of his 
surroundings. He had flat-lined in an emergency room that summer and 
had been brought back to life using intubation without anesthesia after 
one particularly bad allergic reaction. Joshua was nine years old, and 
he was being treated at the National Institutes of Health (NIH) in 
Bethesda for his condition. While receiving treatment at the NIH, 
Joshua met another young boy with similar critical allergies. This 
second little boy was Colby Tomasello; Colby is a member of 2009 
ExploraVision second place national winning team and he and his team 
mates designed an EpiWatch--a small, wearable, computerized watch that 
contains special codes and microneedles that instantly deliver painless 
doses of epinephrine when the wearer suffers from an allergic reaction. 
The EpiWatch utilizes cell phone and GPS technology to alert medical 
officials in the event the wearer suffers a life-threatening allergic 
reaction.
    After hearing about Colby's project, and after visiting the 
ExploraVision Web site, I was so impressed by what young children could 
invent that if the opportunity ever arose, I promised myself that I 
would encourage my son to participate. Not more than a week later, his 
school posted a notice in the student newspaper that they would be 
sponsoring teams in the ExploraVision National Science Competition for 
the first time. I immediately asked my son about participating--he 
agreed and proceeded to invite three of his friends from the fifth 
grade to join. Jack's 2010 science team designed a food poisoning 
detection device that looked like a thumb drive, was lightweight and 
portable, and could be used to detect dangerous pathogens in food. This 
year's team designed a military helmet to protect soldiers from 
traumatic brain injury from roadside bombs. I am a huge fan of 
ExploraVision's science competition, a contest that encourages children 
in grades Kindergarten through 12th to select a current technology and 
imagine what it might be like in 20 years. And I am continually amazed 
by the originality of the students' inventions and the great advantage 
to society that all of these ideas could potentially provide.
    Now I would like to present background information on our team and 
more detailed information on our project for Members of the Committee. 
Our team is comprised of four students who came to know each other 
through swimming. All four team members swim year-round for the 
nationally recognized Curl-Burke Swim Club and in the summer for the 
Old Dominion Swim League. As I mentioned, my son had been part of a 
regional winning team the year before, and in accordance with the rules 
of the competition, he was not allowed to compete with members of his 
previously winning team--nor will the children sitting with us today be 
allowed to compete together as a team next year, or ever again. My son 
has benefited greatly in this regard: his 2010 regional winning team 
was all male, and each of the four boys were in advanced math class 
together. This year's team is predominately female, and while all of 
these girls excel in math, my son's association with them is through 
sports. Suffice to say, successful teams come in all shapes and sizes.
    Another important distinction with this year's team is that our 
four students represent three different schools; Jack was homeschooled 
using Virginia Virtual Academy's online sixth grade public school 
program, Abby Porter and Jovia Ho attend fifth grade at John E. Tolbert 
Elementary School in Leesburg, and Sydney Dayyani attends sixth grade 
at Belmont Ridge Middle School in Lansdowne. I would like to take a 
moment to thank Virginia Virtual Academy and Suzanne Sloane, who is the 
Head of the School, for sponsoring our team and for giving us an 
unparalleled opportunity to work together: male and female students, 
elementary and middle school students, homeschooled and ``brick and 
mortar'' public school students. I'm a little biased, but I think our 
team represents the best of the collaborative spirit, and as we all 
know, collaboration in the field of science is how society will find 
solutions to the complex and very serious problems that confront us as 
a nation.
    Starting last September, our team began meeting every week for two 
hours. The team read news articles and news magazines to become 
familiar with current events and advances in science and technology. 
The team brainstormed and discussed multiple ideas over several weeks. 
The team communicated with our coach, Mrs. Harrison, using Elluminate 
Live's Web conferencing program. My son frequently used this program 
for his online schooling, and it proved to be a great resource for our 
science team too. Mrs. Harrison provided us with constructive and 
invaluable feedback every step along the way, and the team was always 
eager and excited to use the new communication platform to present 
their ideas to her.
    Some of our team ideas included a stress-releasing ball that would 
decrease workplace stress, a protective satellite shield to minimize 
space junk collisions, and a brain-powered car. With Google's 
announcement of a ``Self-Driving Car'' within the same time frame, the 
team realized how quickly the world around them was changing and how 
important it is to stay on top of the latest developments in science. 
And then Jack saw the picture of Spec. Robert Warren in the Washington 
Post. Spec. Warren is a soldier who has suffered traumatic brain injury 
from an IED while serving in Kandahar, Afghanistan, in May 2010. Jack 
selected the idea of creating a helmet that would protect U.S. soldiers 
from traumatic brain injury due to roadside bombs with a device the 
team called the HEADS UP! HELMET. The team's design features 
overlapping polyethylene plates, sophisticated heat and air pressure 
sensors, bullet and shrapnel-stopping gels, and a 360-degree neck 
collar that inflates to protect the brain and neck in case of a bomb 
blast.
    The team further decided that they would take the proposed 
technology from the battlefield to the playing field, in 20 years or 
less, to help prevent the growing number of concussions in children and 
athletes with a device call HEADS UP! HEADGEAR. This futuristic design 
features micro layers of impact-resistant, molecular-weight 
polyethylene sheets spun and covered with highly sensitive temperature 
and air pressure sensors to detect concussive force. These impact-
resistant sheets are also encapsulated with shock absorbing gel that 
expands to form a protective cushion; instant cold crystals provide 
metabolic cool-down to prevent intracranial pressure (ICP) build-up--
one of the most dangerous results of TBI; and lavender or eucalyptus 
aromatherapy beads deliver post-impact sensory relief to prevent shock. 
These composite materials expand under force, extreme air pressure or 
temperature to ultimately protect the brain from mild, moderate or 
traumatic injury.
    Our team used all of the research tools at their disposal, 
including conducting email interviews of doctors, engineers and 
researchers from across the United States--from the University of 
Washington in Seattle to the University of Maryland in College Park. 
Using interviews, the library and the Internet, our team worked 
diligently to learn as much as they could about healthy brain function, 
traumatic brain injury and the science behind the state-of-the-art 
technologies surrounding helmet design.
    The team's 11-page written submittal and five-page simulated Web 
designs documented the history and the present technology of helmet 
design, and included a detailed description of their future design, the 
scientific breakthroughs necessary to make their new invention a 
reality, and the future technology's positive and negative 
consequences. I'm proud to say, the team finished their submittal for 
the regional competition a full three weeks in advance of the February 
deadline.
    As regional winners, the team was required to expand upon the work 
they submitted in the first phase in order to compete in the national 
competition: The team began working right away and they were back to 
meeting two hours every week, AND on the weekends! They began by 
building the prototype models. The team felt it was necessary to build 
a model of both their present AND future inventions in order to better 
explain their Helmet's design process. After the models were complete, 
the team worked to find the most compelling clips for their two-minute 
video. They edited and practiced their parts to ensure the video would 
tell the complete story of their invention. The Web site is a 
compilation of all the work the team has done to date and provides a 
degree of user interface that makes the Web site educational and 
interesting. Once again, I'm proud to say, the team finished their 
final submittal for the national competition well in advance of the 
April 8th deadline.
    The national winning teams were announced on May 2, 2011, and here 
we are. Our team has learned a lot about working on an 
interdisciplinary project. They have learned how to organize and 
present their knowledge more effectively and, as a result, they have 
sharpened their communication skills. I am hopeful that participation 
in this competition will ignite an interest for members of our team in 
STEM-related fields, but I know they have, at the very least, developed 
a better understanding of the world around them. I'd like to thank the 
Toshiba Corporation for sponsoring the competition and the National 
Science Teachers Association for administering this event.
    And on a tragic, personal note, I would like to offer our coach, 
Mrs. Penni Harrison, our deepest sympathy on the loss of her husband. 
We have collaborated with Mrs. Harrison since September 2010, and in 
all of our team discussions regarding the design of our military 
helmet, we did not know until six days ago that her husband, COL James 
W. Harrison, Jr., was killed in action in May 2007 while serving as the 
Corrections and Detainee expert in Afghanistan. We are very, very sorry 
for her loss, and we realize that our research, discussions and 
presentations may have revived painful memories for her--and yet she 
was always so kind, supportive, and positive when we presented our 
information to her. Mrs. Harrison truly exhibits the patriotic 
selflessness of the American military family. It is an honor and a 
privilege to have worked with her, and we could not have asked for a 
better teacher, coach, and role model.

    Chairman Hall. Thank you. You too are right on the dot. You 
all might set a record here today.
    I now recognize Amy Attard and Miss Claudia Cooper for five 
minutes. Thank you.

         STATEMENT OF MRS. AMY ATTARD, SCIENCE TEACHER

        AND COACH TO THE I-TBS: INTRA-TRACHEA WEST HILLS

             MIDDLE SCHOOL TEAM, COMMERCE, MICHIGAN

    Mrs. Attard. Good morning, Chairman Hall and Ranking Member 
Johnson, as well as the other Members of the Science Committee. 
I want to thank you for giving me this opportunity to share the 
amazing experiences that students at West Hills Middle School 
have the opportunity to take in, to be a part of in the science 
classroom.
    The ExploraVision program has become a tradition here at 
West Hills. This is my sixth year being a sponsor of the 
program, and every year it evolves and it gets better and 
better. This year along with Claudia Cooper and Samantha 
Tarnapol, we also in addition to the second-place title had 
nine honorable mention teams as well, and back in 2008 I had 
the privilege and honor of coming back to the ExploraVision 
weekend and I was also the coach of a team back in 2008 who 
also took the second-place national title. So the ExploraVision 
program is near and dear to my heart.
    Over time, as I have carried out this program with the 
students, changes have been made to make it better, to increase 
the amount of science skills, math skills, engineering skills 
and this year we really focused on the process of the program. 
We decided to create an interdisciplinary unit where myself as 
the science teacher, along with Russell Purdy, the language 
arts teacher, decided to work in tandem with the students this 
year to make it more meaningful for the students to bridge 
their learning process between science education and the 
language arts classroom.
    In science, we focused on what is called the design cycle, 
which is part of the international baccalaureate program, where 
the students had to investigate possible invention ideas. They 
then together as a team had to research the positives and 
negatives of their invention and then they had to decide and 
reflect on which invention they wanted to choose to carry out 
for this project. In science, they worked together as a team. 
In language arts, they worked together as a team but more at an 
independent level. In language arts, the language arts teacher 
focused on teaching the research process as well as note 
taking, citing sources of information, and in science, we 
focused on the collaboration and the communication that needs 
to take place in order for a team to be successful.
    The unit question to get the ball rolling for students was, 
how can my creativity impact society. We wanted this project to 
be meaningful for the students so they would have that personal 
buy-in, so they would be engaged in the topic at which they 
were researching. So we posed the question: what technology do 
we currently have today? We looked at current technology, how 
it has changed and evolved over time, and we also looked at 
famous inventors and what they have contributed to our society 
that we still use and benefit from today, and these questions 
that the students had kind of set the structure and the 
framework for them to get the ball rolling in terms of what 
impact did they want to make, who did they want to improve, who 
was their audience going to be.
    So again, we wanted this to be more about human ingenuity, 
their innovation, their creativity, the limit--or the 
possibilities were endless. There was no limit to their 
research, as long as they were learning at the same time and 
the process that they went through in terms of reflecting and 
going back and starting the process all over again if they 
found that, you know what, my idea wasn't working or the 
technology isn't possible. So from our end, from a teacher's 
perspective, yes, the project was amazing but it was more about 
the process: how did you get from point A to point B, to build 
this wonderful innovative idea.
    In addition to the ExploraVision program, we also offer 
other competitions, science competitions to spark STEM 
education, which involve the Dupont Science Essay Competition, 
the Detroit Science and Engineering Fair as well as the Sunrise 
with Shade Poster Contest. From a teacher's perspective, we 
have homework that we can check. We work with the parents for 
the support that they give the school district and they help 
their children, but going through programs like the 
ExploraVision and these other science competitions allow the 
community, whether it be the local community or the global 
community, to be able to see what is really taking place in the 
classroom and all the wonderful things that students are now 
doing today, and it is a great way for them to showcase and 
highlight their own successes.
    ExploraVision is a great venue for differentiation. It 
allows students to reach their maximum potential. The students 
that wanted to learn more about one area of technology had that 
opportunity to do so. Students became experts based on their 
own invention that they chose to do for this project. So we had 
multiple groups working in multiple directions, but at the end, 
we were all able to come back and collaborate at the same time.
    Along with the human ingenuity, our goal is to strive for 
lifelong learners. We want students to become inquirers. My 
goal as a teacher is to make students want to ask questions. I 
want them to ask me questions. I don't want to force-feed them 
information. It is more meaningful if they have that personal 
buy-in and that engagement in science education, and through 
the ExploraVision program and all of these other wonderful 
science competitions, we are moving in that direction, and as a 
teacher, to see my students smile every day when they come in 
and say what are we doing today, I can't wait, what are we 
learning today, can we look at this, can we talk about this 
today, to me, my job is easy. They are the ones who are coming 
in with the inquisitive mindset of wanting to learn more about 
science.
    So I want to thank you for this opportunity to share my 
passion as a science teacher and the importance of enriching 
and engaging students in STEM education to become lifelong 
learners and successful members of society today and 20 years 
from now. Thank you.
    [The statement of Mrs. Attard follows:]

Prepared Statement of Mrs. Amy Attard, Science Teacher and Coach to the 
 I-Tbs: Intra-Trachea West Hills Middle School Team, Commerce, Michigan
    Good morning, Committee Members and national winning teams. My name 
is Amy Attard, and I teach seventh grade science at West Hills Middle 
School in West Bloomfield, Michigan. I have been teaching for six years 
in the Bloomfield Hills School District, which serves suburban students 
north of Detroit. I would like to take this opportunity to share with 
all of you the wonderful enriching and engaging experiences students 
can have as part of their science class.
    The Toshiba/National Science Teachers Association ExploraVision 
Program is just one venue that provides a challenging opportunity for 
students to become excited about science. This program encourages 
students to think of an invention that could come to life 20 years in 
the future. West Hills Middle School has been participating in the 
ExploraVision Program for over 10 years; it has become a tradition at 
the seventh grade level. This year we were fortunate to have one of our 
teams take home the second place title in the nation for the seventh-
ninth grade category. The Intra-Trachea Breathing System Team (I-TBS) 
team made up of seventh graders Claudia Cooper and Samantha Tarnopol 
chose to work successfully as a team of two, which meant they had 
double the amount of work compared to a team of four. This year's top 
winners were selected from a group of 4,346 team entries. Through 
Claudia and Samantha's hard work and determination, they won a number 
of prizes for themselves and West Hills alike. West Hills was awarded a 
Toshiba laptop computer and the mentor, Russell Purdy, and I were 
awarded Toshiba HD camcorders, along with Claudia and Samantha. In 
addition to the amazing technology, both Claudia and Samantha were 
awarded a U.S. EE Savings Bond worth $5,000 and an all-expenses-paid 
trip to Washington, DC, to attend the ExploraVision Awards weekend 
along with their families and teachers. In addition to Claudia and 
Samantha's great success, nine other teams from West Hills earned 
honorable mentions in the ExploraVision competition. Along with 
receiving notoriety, the honorable mention groups also received a gift 
for their accomplishments in addition to every participating group 
receiving an award and a small participation prize. We continue to 
promote the ExploraVision Program at West Hills because it allows 
students to think creatively, and provides them an opportunity to look 
into their future. In doing so, students are challenged to use their 
ingenuity to plan, research, and design a product that will benefit 
mankind. This model forces students to think globally, use problem 
solving skills and incorporate technology, all skills that are 
paramount in the future of education. Overall West Hills has done very 
well in the competition. For the past six years that I have been 
enriching students with this project, we have always been awarded with 
at least one honorable mention team,and in 2008 I had the privilege of 
coaching another team that also took home the second place national 
title.
    The ExploraVision competition is part of a mandatory class 
assignment in both science and language arts classes. The unit is 
designed to be interdisciplinary between the two subjects, as both 
classes worked in tandem to complete the rigorous requirements of the 
program. Through their science class, students chose their own partners 
for the project. Each group was made up of seventh graders, and they 
are all from West Hills. Two hours of each day, one hour in science and 
one in language arts, were devoted to work on this project, which was 
three weeks in duration. During science students worked 
collaboratively, and in language arts they worked independently. In 
science the unit was looked at through the lens of scientific research, 
and the process of the project was presented using the Design Cycle 
model. The Design Cycle model, which is part of the International 
Baccalaureate program, is a way for students to problem solve and 
continually evaluate and reflect on their process as they worked 
through the project. In addition to the scientific research aspect of 
the project, the students focused on collaborating and communicating 
with their team as they worked through the Design Cycle to brainstorm 
invention ideas and proceed through the research process. At the same 
time, in language arts class students learned how to properly take 
notes from various sources, write a research paper, evaluate sources, 
and cite all of their information correctly. Overall, this project 
allowed students the opportunity to be creative and forced them to 
think 20 years into the future. But more importantly, through this 
project students developed the skills of being an inquirer, a problem-
solver, and a communicator and hopefully they will take these skills 
with them as they move forward in school and eventually out into the 
real world.
    In order to inspire students we looked at famous inventors and how 
their inventions have contributed to our everyday lives, and to 
stimulate the innovative minds of the students we posed the question 
``How can my creativity impact society?'' In order for students to move 
forward they had to answer the following questions: (1) What did I want 
to improve? (2) Who was my audience going to be? (3) Why would people 
want my invention? These questions set the stage for students to 
investigate possible invention ideas, which then led to sketches and 
design briefs of each invention, and finally students researched the 
positives and negatives of each idea and its impact it would have on 
society. From their investigation, each group then collectively 
selected the idea they wanted to move forward with for the project. 
Russell Purdy and I provided the structure, deadlines, and rubrics for 
the students in both science and language arts class, while the 
students divided up the project equally among their team and set their 
own goals and expectations for each individual member. While working on 
this project, students researched information, interviewed family 
members who had knowledge in certain areas, and in some instances even 
held phone interviews with companies that sold products related to 
their invention ideas. The final piece of the project was the 
culminating research paper and the creation of the Web page graphics, 
which provided a great opportunity for students to learn various 
drawing programs on the computer and actually see their process and 
invention come to life in front of their own eyes through their 
graphics they created.
    In addition to the ExploraVision competition, I also encourage 
students to participate in other science competitions throughout the 
school year. Other science competitions in which some of my students 
participate in are the Science and Engineering Fair of Metro Detroit, 
The DuPont Challenge Science Essay Competition, and the SunWise with 
SHADE Poster Competition. Students have done particularly well in these 
science competitions. This year a current seventh grader took first 
place in the nation for her poster entry in the SunWise with SHADE 
Poster Competition and five students across grades seven and eight 
placed in the Science and Engineering Fair of Metro Detroit.
    Overall STEM projects, such as the ExploraVision competition, 
continue to emphasize the relevance and real-world application of 
science, math, engineering, and technology. These projects also allow 
schools to showcase the amazing skills that many of our students 
possess; skills that might otherwise go unnoticed in the community at 
large. As teachers it is our role to make sure our students are ready 
for the future. Whether the future is the next grade level, college, or 
the workforce, having a good foundation and knowledge in the areas of 
math and science are important in and out of the classroom. As our 
society continues to grow into a digital world, technology skills are 
becoming more of a necessity rather than just a skill. Furthermore, 
when looking at engineering, the process of being able to problem 
solve, collaborate with others, and continually reflect is relevant in 
and out of the classroom, and more importantly it is what makes 
students become inquirers. As curriculums continue to become more 
rigorous for students, it is important for teachers and parents to work 
together and support students so they can reach their maximum potential 
and, more importantly, see the relevance in what they are learning in 
order to become life-long learners and successful members of society.

    Chairman Hall. Thank you. You were just almost on time, by 
gosh. You and Jack's mom and Dr. Lozano really expressed 
yourself well, and it was interesting, everything you said, and 
we thank you for it.
    I now recognize Ms. Ann Manwell and Miss Allison Reed to 
present testimony.

       STATEMENT OF MS. ANN MANWELL, SCIENCE TEACHER AND

   MENTOR TO THE 3DRENAL: KIDNEY BIO-PRINTER STUYVESANT HIGH 
                SCHOOL TEAM, BROOKLYN, NEW YORK

    Ms. Manwell. Good morning, Committee Members, colleagues 
and students. I am Ann de Sostoa Manwell and I have been 
teaching at Stuyvesant High School, a specialized New York City 
public high school for math, science and technology, for 14 
years.
    All the students at Stuyvesant took a qualifying test to be 
offered a seat at the school, and we have a very rich history 
of student research and success in student science competitions 
like Intel/Science Talent Search, Siemens Competition and the 
International Science and Engineering Fair. We can boast four 
Nobel laureates among the many scientists, mathematicians, 
engineers and physicians who are alumni.
    But schools like Stuyvesant and all the specialized high 
schools in your States do not operate in a vacuum. We need the 
farm teams that you heard about earlier today. I would like to 
take this opportunity to speak to you today about the role 
competitions like Toshiba ExploraVision play in developing the 
students with the skills necessary to participate in our 
programs.
    We at Stuyvesant have found that engaging students in these 
competitions allows them to be creative, think broadly and 
critically of the world around them, work in teams, develop 
time management skills and take ownership of a project. No one 
now at Stuyvesant remembers when ExploraVision became part of 
the 10th-grade research chemistry curriculum, but it was 
probably very close to its 1992 launch. The current chemistry 
teachers, Samantha Daves and Zhen Chuan Li, have continued to 
use ExploraVision as a powerful motivating force to develop 
student skills in scientific thinking.
    As you have heard, the ExploraVision competition requires 
teams of students to take a current technology and push it 20 
years into the future. Ms. Daves' teams bounced ideas off of 
each other, brought in classmates from other sections, grilled 
parents, consulted online sources for their choice of current 
technology to develop. The 3Drenal team of Norine Chan, David 
Kurkovskiy and Alison Reed took an article found by Alison's 
mother on bio-printing and combined it with what they knew 
about adult stem cells and signaling molecules and began to see 
into the future.
    Critical at this stage of the students' development, Ms. 
Daves divided the project into smaller tasks, established a 
timeline for completion of the various stages of their project. 
The 3Drenal team recognized their different skill sets and 
divided up the labor accordingly. Alison was the artist, David 
provided overall organization, and Norine did background 
research. They knew that they could consult on various faculty 
members, especially research coordinator, Dr. Jonathan Gastel, 
for leads to more detailed information or to clear up any 
technical questions they had. They finally put it all together 
and sent it off.
    On the day the awards were made, around school, around the 
computers at school there were clutches of 10th graders eagerly 
awaiting to see the results. They did quite well. 3Drenal 
placed first in the northeast region, and both Dr. Li's and Ms. 
Daves' research chemistry class had numerous honorable 
mentions, and there were many honorable mentions in Ms. Daves' 
regular chemistry class, which were not assigned the Toshiba 
project as required.
    The 3Drenal Team and their classmates were pleased with the 
performance but really the difficult part had just begun. The 
team had just four weeks to create a Web site to show off 
3Drenal. They had won a Toshiba computer loaded with Web design 
software, but they had little experience using it. Consultants 
were needed. Paul Oratofsky, class of '67, helped with the 
initial Web site design, and later Digital Resource 
Incorporated, a company headed by Alison's father, David Reed, 
was enlisted to help with 3D imagery and Web site 
orchestration. After many hours after school, on weekends, at 
school or the Chans' or Digital Resources, the Web site was 
completed and submitted.
    A few weeks later, the 3Drenal Team were surprised at 
school by Toshiba and NSTA representatives announcing their 
second-place national position in the senior division. They now 
had to build a prototype. A more detailed design had to be 
developed, materials had to be chosen, dimensions measured. 
Scott Thomas, the chemistry physics chair, volunteered to teach 
Norine enough AutoCAD so that she could program our very real 
3-D printer to print parts of the print corners for the control 
in the future 3Drenal printer. Finally, they had to fashion a 
clay kidney to represent 3Drenal's innovative product, a new 
kidney formed by the patient's own bone marrow stem cells 
stimulated by various molecules to develop into kidney-specific 
tissues and then have it assembled by the 3Drenal bio-printer.
    The 3Drenal Team had pushed an existing technology to 
future uses. They had to work as a team. They had to recruit 
experts to help them. They had to articulate their problem and 
innovative solution clearly and accurately. They had to 
complete their project on time and had to deal with unfamiliar 
technology and tools. All these skills will serve them very 
well if they continue in any of the STEM disciplines or, for 
that matter, in any discipline they choose to follow.
    I hope you have time in your busy schedules to see the 
prototypes and listen to these students talk about the ideas 
that they have brought to Washington and for which you so 
graciously have provided a national venue. Thank you.
    [The statement of Ms. Manwell follows:]
   Statement of Ms. Anne Manwell, Science Teacher and Mentor to the 
3Drenal: Kidney Bio-Printer Stuyvesant High School Team, Brooklyn, New 
 York; And Miss Alison Reed, 10th-Grade Student at The Stuyvesant High 
 School and Member of The 3Drenal: Kidney Bio-Printer Team, Brooklyn, 
                                New York
    Good morning Committee Members, colleagues and students. I am Anne 
de Sostoa Manwell and I have been teaching biology at Stuyvesant High 
School, a specialized NYC Public School of math, science and 
technology, for 14 years. All students at Stuyvesant took a qualifying 
test to be offered a seat at the school. We have a rich tradition of 
student research and success in student science competitions like 
Intel/Science Talent Search, Siemens Competition and ISEF. We can boast 
of five Nobel Laureates among the many scientists, mathematicians, 
engineers and physicians who are alumni.
    But schools like Stuyvesant and specialized high schools in all of 
your states do not operate in a vacuum. We need students prepared by 
elementary and middle schools to feed our programs. I would like to 
take this opportunity today to speak to you about the role competitions 
like Toshiba ExploraVision play in building the skills needed for 
students to participate in our programs.
    We at Stuyvesant have found that engaging our students in 
competitions allows them to be creative, think broadly and critically, 
work in teams, develop time-management skills, take ownership of a 
project, and be proud of their work. No one now at Stuyvesant remembers 
when ExploraVision became a part of the 10th grade Research Chemistry 
curriculum, but it was probably very close to its 1992 launch. The 
current Research Chemistry teachers, Samantha Daves and Dr. Zhen Chuan 
Li, have continued to use ExploraVision as a powerful motivating force 
to develop student skills in scientific thinking.
    The ExploraVision Competition requires teams of students to take a 
current technology and push it 20 years into the future. This nurturing 
of a young person's imagination, starting as young as kindergarten, 
ensures that as she gets older, she will continue to ask questions and 
explore her world. Ms. Daves' teams bounced ideas off each other, 
brought in classmates from other sections, grilled parents and 
consulted online sources for their choice of current technology to 
develop. The 3Drenal team of Norine Chan, David Kurkovskiy and Alison 
Reed took an article found by Alison's mother on bioprinting and 
combined it with what they knew about adult stem cells and signaling 
molecules and began to see into the future.
    Critically at this stage of their development, Ms. Daves gave the 
teams a timeline to complete the various stages of their project. The 
3Drenal team recognized their different skill sets and divided up the 
labor accordingly. Alison was the artist, David provided overall 
organization and Norine did background research. They knew they could 
consult with other faculty members, especially the research 
coordinator, Dr. Jonathan Gastel, for leads to more detailed 
information or to clear up any technical questions they had. Finally it 
was all together and sent off.
    This initial phase can be done in any educational setting. With the 
motivation of the ExploraVision competition, any STEM teacher can 
engage students in the creative and innovative thinking necessary to 
look into the future.
    On the day the awards announcement was made, there were numerous 
clutches of 10th graders crowded around computers to see results. They 
did quite well. 3Drenal was first in the Northeast region, and both Dr. 
Li's and Ms. Daves' research chemistry classes had numerous honorable 
mentions. And there were many honorable mentions in Ms. Daves' regular 
chemistry classes for whom the ExploraVision project was not required! 
Toshiba and the National Science Teachers Association (NSTA), 
ExploraVision's sponsor and administrator, were impressed with the 
numbers and helped arrange a press conference for all the students, 
parents, upperclassmen research students, and faculty. Speeches were 
made, reporters asked questions, pictures were taken and veggies were 
dipped.
    The 3Drenal team and their classmate were pleased with their 
performance but the really difficult part had just started. The team 
had just four weeks to create a Web site to show off 3Drenal. They had 
won a Toshiba computer loaded with Web-design software but they had 
little experience using it. Consultants were needed. Paul Oratofsky, 
SHS '67, helped with initial Web site design, and later Digital 
Resources Incorporated, a company headed by Alison's father, David 
Reed, was enlisted to help with 3D imagery and Web site orchestration. 
After many hours after school and on weekends, either at school or the 
Chan's or Digital Resources Inc., the Web site was completed and 
submitted.
    A few weeks later the 3Drenal team was surprised at school by 
Toshiba and NSTA representatives announcing their National Second Place 
in the senior division. This was at 10:30a.m., by 11:40 everyone knew 
the news and was congratulating David, who was in my molecular science 
class. But now they had to build a prototype. A more detailed design 
had to be developed, materials to use had to be chosen and dimensions 
measured. Scott Thomas, the chemistry/physics chair, volunteered to 
teach Norine enough AutoCAD so that our very real 3D printer could 
build the printer corner controls for the future 3Drenal bioprinter. 
Everyone had to learn to wield an Exacto knife to cut foam-core for the 
printer cabinet. Finally they fashioned a clay kidney to represent 
3Drenal's innovative product, a new kidney formed from the patient's 
own bone marrow stem cells that were stimulated to develop into the 
various kidney tissues, in vitro, by tissue-specific signaling 
molecules and then assembled by the bioprinter.
    The 3Drenal team had pushed an existing technology to future uses. 
They had to work as a team. They had to recruit experts to help them. 
They had to articulate their problem and innovative solution clearly, 
accurately and persuasively. They had to complete their project on 
time. They had to deal with unfamiliar technology and tools. They have 
accepted acknowledgement for their efforts. All these skills will serve 
them very well if they continue in any of the STEM disciplines or for 
that matter in whatever discipline they choose to follow.
    I hope you have time in your busy schedules to see the prototypes 
and listen to the ideas that the ExploraVision teams have brought to 
Washington and for which you have provided a national venue.

    Chairman Hall. Thank you for a good presentation, and I 
thank all of you for your testimony and reminding Members here 
that Committee rules apply to us also on the five minutes, and 
the chair at this time will open the round of questions and I 
yield myself five minutes.
    My first question will be to Alison. Alison, I think you 
are the senior member of all this group here. Is that right?
    Miss Reed Yes.
    Chairman Hall. That means you are the oldest. Is that 
right?
    Miss Reed. Yes.
    Chairman Hall. Well, you will feel good to know I am the 
oldest guy in the House or Senate, so we have something in 
common, and I picked you to start with. You are what they call 
a rising junior. Does that mean you are going to be a junior 
next year?
    Miss Reed. Yes, I am.
    Chairman Hall. I think I was a junior three years. Do you 
and your teammates know what you really want to study in 
college yet?
    Miss Reed. I am actually not sure what I want to do. I feel 
like I have many options and pathways I can go down. I know 
that Norine is really interested in becoming a doctor. I think 
she definitely wants an overall liberal arts education, and she 
wants to explore every possibility, and so does David, and 
David is very interested in becoming a writer.
    Chairman Hall. Well, I might ask you this. Has winning this 
competition had any bearing on your decision or changed or 
hastened your decision?
    Miss Reed. Yes, it definitely has because we had so much 
fun and it was so interesting to research and develop our idea, 
and I think that getting more involved with science and our 
project has really opened up that area to us and made it more 
available and more interesting, so I definitely really liked 
it.
    Chairman Hall. Okay. Well, we thank you.
    I will ask all students this, and you can give me a loud 
yes or no and we will kind of determine by the--we have a noise 
tester up here. Did you like science and math before you 
started your project? Yes or no. This thing says yes wins by 
about eight to 10. Another question: do you like it even more 
now? That is yes again.
    All right. I have some time left here. Let me see what else 
I have. I might ask to all the students, anybody that wants to 
suggest an answer, what did you enjoy the most about your 
project and what did you like the least? Who wants to answer 
that? Hold up your hand. Jack, do you want to answer that? I 
have been doing business with you ever since you have been 
here. All right, Marcelo.
    Master Vidal. Painting the prototype.
    Chairman Hall. Painting the prototype?
    Master Vidal. Yes.
    Chairman Hall. That's a yes. Okay, does anybody else want 
to say? Yes, Claudia.
    Miss Cooper. Hi. My name is Claudia Cooper. I am a seventh 
grader at West Hills. I think the most enjoyable part about 
this whole project was when Samantha, my partner, and I first 
started, we had no idea, honestly it started as a required 
curriculum activity--not activity, assignment that Mrs. Attard 
proposed to us, and when we got our inspiration to help people 
who are suffering from respiratory insufficiency, it really 
was, I guess, cool to know that we can help people and to see 
what our generation is capable of and to know that there is 
possibility as long as someone out there has ideas and minds to 
think of them.
    /Chairman Hall. Okay. Thank you.
    To all the adults, let me ask you this. Several of you 
commented on how impressed you were with the ability of your 
teams to come up with novel ideas such as integral pieces of 
this competition that you are in. Can you talk about how you 
helped the students to drill down on their broad concepts, or 
how did you have to help them do that at all? Perhaps it was a 
natural part of the process. Anybody want to answer that? Yes, 
Mrs. Conwell.
    Mrs. Conwell-Dudley. We started by reading newspaper 
articles and news magazines. I felt it was important for the 
children to become aware of the news around them, to look at 
what was going on in current events, and so we started 
brainstorming from that, and that is where we got most of our 
ideas, and so they were based in fact and they were relevant 
issues, you know, current to today's ongoing problems, and that 
is how we started.
    Chairman Hall. Did you read anything about any of the 
current activities of any of us Congressmen?
    Mrs. Conwell-Dudley. Of course.
    Chairman Hall. Does anyone else care to comment? Yes, Ms. 
Manwell.
    Ms. Manwell. Yes, and after the kids come up with an idea, 
you have to ask them, is it feasible, what do you know about 
it, where does it take you, what do you need to know in order 
to go forward.
    Chairman Hall. All right. I cheated for 10 seconds, and I 
thank you all for the good answers you gave me.
    At this time I recognize Ms. Johnson for five minutes.
    Ms. Johnson. Thank you very much. It has been informative 
to listen to the testimony.
    As Mr. Hall indicated earlier, we are both Texans, and in 
Texas, we have around 1,100 school districts, and because of 
that, we pioneered some distant learning, but I am becoming 
more and more concerned about the cost of the administration of 
all these school districts and have wondered whether or not we 
could substitute some of the administration with distant 
learning, so I am interested in trying to get information from 
you of how you feel that using distant learning in STEM 
education could be successful. I wonder, because we have home 
schooling involved here, and so perhaps I can ask you, Mrs. 
Conwell-Dudley, about your experience in feeling that it could 
be successful.
    Mrs. Conwell-Dudley. Well, as I mentioned, we used--we are 
sponsored by Virginia Virtual Academy in Herndon, Virginia, and 
we used the online public school program this year for Jack's 
sixth-grade schooling, and we felt very fortunate that they 
were willing to sponsor a team, and we used what is called 
Illuminate Live--it is a Web conferencing program--to 
correspond with our coach, Penni Harrison, who actually lives 
in Colorado, and it is how we did our schooling throughout the 
year and it is how we ran many of our science meetings, and we 
would send things electronically. We would send attachments. We 
would, you know, upload our presentations. She could take a 
look at it in advance and then when we had our meetings, we 
would, you know, share information that way, and well, here, we 
are, so it apparently worked very, very well for us, and it was 
a lot of fun and I felt like we were sort of on the cutting 
edge of it. So I have to say there was little or no cost 
involved, and it was fantastic.
    Ms. Johnson. Now, were you home all the time with Jack?
    Mrs. Conwell-Dudley. Yes, I was. I was his parent coach, 
and so this was a temporary option for us. Jack will be in a 
brick-and-mortar school next year but we did this for some 
personal and academic reasons, and we were very thankful that 
we could use their program. It was outstanding.
    Ms. Johnson. Thank you.
    Now, Jack, how did you like going to school on a camera?
    Master Dudley. It was fun, and I learned a lot. It was good 
having somebody actually there to work with you one on one, in 
this case, my mom, to help me with all of my studies and I 
think it was a great curriculum.
    Ms. Johnson. Have you compared that to being in a classroom 
with other students?
    Mrs. Conwell-Dudley. Well, we live in a neighborhood full 
of children who go to both public and private school, and I 
would have to say that I think my son's education was on par or 
perhaps even better in some respects, but I am a little biased.
    Ms. Johnson. I am not trying to criticize. I am seeking 
information.
    Jack, did you miss having students sitting next to you or 
you felt you got that through the virtual experience?
    Master Dudley. I missed having students around me but I 
just got a lot better learning experience because my mom can 
just work with me with nobody else asking questions.
    Ms. Johnson. Thank you. You have a wonderful private 
teacher.
    Dr. Lozano, my time is running out quickly, but in your 
biography I read that you were the first Mexican-American woman 
in 70 years to receive a Ph.D. from Rice, and the fifth woman 
to ever get a Ph.D. from Rice's mechanical engineering and 
material science department. The underrepresentation of women 
is quite apparent, and minorities, and I wonder whether you are 
beginning to see any breakthrough or whether you think it still 
takes a lot of outreach effort?
    Dr. Lozano. You mean for girls in general?
    Ms. Johnson. Girls in general.
    Dr. Lozano. You know, girls somehow are taking over, you 
know, in college in most of the majors where they were, you 
know--I don't know, like a lot of the liberal arts and a lot of 
business, and there are now more girls than boys enrolled in 
college.
    Ms. Johnson. In college in general but in----
    Dr. Lozano. In college in general, but in engineering, it 
is still no higher than 17 percent, so still in my classes of, 
like, 60 kids, I have, like, maybe five girls and 55 boys. So 
still, you know, I haven't seen any change since, you know, 10, 
15 years ago. So still the girls make a lot less. And it is a 
very severe cultural stereotype, you know, when you ask people, 
even boys, you know, what does a mechanical engineer do, and 
everybody will imagine a hat and oil and boots and, you know, 
like a dirty type of profession, and in reality when I take 
them into my lab, I do a lot of tours for--you know, at least 
1,000 kids pass by my lab every year, and they are surprised to 
see that oh, so you actually deal with, you know, prosthesis 
for the knee and the hip and, you know, so that doesn't have to 
do anything with oil. You know, mechanical engineer, we also do 
scaffolds for tissue regeneration. We need to take mechanical 
properties for the cells to anchor and grow without falling 
down, you know, and the scaffold has to sustain the load.
    So they don't really know exactly what engineering is. So 
even though engineering is all around us, you know, very small 
percentage of people know what it is. Even like, I don't know, 
my son plays piano beautifully and I say you could be the best 
piano player, but if the materials in the piano are not good, 
if the, you know, surroundings of the room are not well 
prepared, you know, you will sound awful, and engineers are 
around all of that but you don't really see them. You go to the 
doctor and you see the X-rays and MRIs and laparoscopies and 
everything and you see a doctor but you don't see the engineer 
that was behind all that development. So we really never see 
what engineers do, and every time--I went to Barnes and Noble 
and kind of just went through books, and I found engineers are 
either the ones that drive the trains in the kids' books. Or 
there is an astronaut and right behind are two guys carrying a 
case and it says engineers. I said, man, those are--you know, 
the astronauts are the engineers. So really the profession 
hasn't really been attractive to kids, so we still have to do a 
lot. And this is all engineering, you know, the creativity that 
comes with ExploraVision. That is basically what engineering 
is, just be creative, use science knowledge to develop 
technology that can benefit society.
    Ms. Johnson. Thank you very much. My questions were within 
five minutes, Mr. Chairman. I didn't promise the answers would 
be.
    Chairman Hall. The lady's ten minutes is up.
    I now recognize--that was a good answer. We would have 
tapped here saying, you know, please start slowing down, but 
thank you for a good, long--a good answer, an honorable answer.
    I recognize Mrs. Fudge, the gentlelady from--Mr. Smith, 
Lamar Smith, the gentleman from--he is chairman of the 
Judiciary Committee from the State of Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Lozano, I thank you and Marcelo for making the trip up 
from south Texas. We don't mean to be picking on you today but 
it is probably no surprise that those of us from Texas are 
going to ask you questions first, and I would like to do so but 
then invite the other witnesses to comment if they would like 
to as well. I have sort of a general question with a specific 
question component to it, and the general question is, well, 
maybe I should say you already provided part of the answer 
because I understand you developed a science and magic show for 
K-12th grade. I wish you could have shown that to us today. 
That would have been fascinating, I am sure.
    But it seems to me that that is one of the answers to the 
overall question about how do we attract young people to become 
interested in science and math. The figures have been mentioned 
but we have about half as many young adults majoring in science 
and math today as we did 20 years ago, and the trend is now 
good and other countries are picking up the slack and we would 
like to see our own American students start majoring more often 
in those types of subjects. So the real question is, how do we 
inspire young people, how do we get them interested in those 
subjects? You showed us in a number of ways how that is 
possible.
    Let me go on and ask a more specific question that you 
might want to address as well as the general question, and that 
is, to me, one of the barriers we face is that of false 
stereotypes, that maybe children from broken homes or from 
lower socioeconomic backgrounds or whose parents don't speak 
English well or girls who are oftentimes thought not to be good 
in math, those are the types of false stereotypes that need to 
be broken down and that will allow these young people to 
achieve their potential and give us millions of more young 
people who might major in the sciences and math, and I think 
part of the answer is better mentors and frequent tutors and 
inspirational and better teachers, more money dedicated to 
those subjects and so on. But do you want to answer the 
question more generally as to what we can do beyond what you 
have already mentioned and also how we can counter those false 
stereotypes?
    Dr. Lozano. That is a very hard question. I guess one of 
the things is to get, you know, leaders into the classrooms, 
professors, you know, science teachers, you know, get them into 
the classrooms, and I think National Science Foundation does an 
awesome job. You know, every grant that top researcher gets 
from National Science Foundation, in order for you to get it, 
it needs to have broader impacts and the broader impacts have, 
you know, outreach within it. So you need to have great science 
in order to be given the grant, but if you don't have that 
section filled, you know, you don't get it. And that forces, 
you know, everybody within the scientific community to 
outreach, you know, to K-12, and I think that is a beautiful 
model, you know, what NSF does.
    I think, you know, a lot of kids, they go into high school 
and they have never--as Congressman Johnson was mentioning, 
women have never been given the opportunity to see, you know, 
what is beyond so when they, for example, tour the lab or when 
we go to the classroom, they give you thank you letters saying 
that, you know, I wish I could have known you 4 years ago and I 
would have made very different decisions, you know, about my 
life.
    So I think, you know, we just need to go back to the 
community and do a lot of that because there is no other way 
to, you know, get kids, you know----
    Mr. Smith. Hard work, dedication, commitment from all the 
adults involved. I think you are right.
    Mrs. Conwell-Dudley, would you have anything to add to 
that?
    Mrs. Conwell-Dudley. Yes, I would. Thank you. We live in 
Loudon County, and I can't really speak to the counties that 
the other schools represent or reside in, but in fact there is 
a lot of interest in science and technology, and one of the 
things that pains me as a parent is, and I will give you an 
example. I have been attending open houses for the Academy of 
Science, which is a program in Loudon County that is open to 
all Loudon County high school students, and I have been for the 
last two years and I have been amazed that every spot in the 
parking lot is full when they have an open house. It is 
heartbreaking, really, and you get into the auditorium and it 
is practically standing room only, and the really unfortunate 
aspect of this is that there are only 60 to 65 spots in this 
Academy of Science and there are hundreds of students who are 
interested in going, and I look at the auditorium, and these 
aren't kids who are being dragged out of bed in the morning. 
These are kids who are actually there with their parents deeply 
interested in getting into this program and yet they can't get 
in because the competition is so great and there is only one 
program in Loudon County that addresses the sciences and math 
in a really advanced way, and it is the Academy of Science. 
There are 60 to 65 spots. So when you look at the 15 middle 
schools that are feeding into that program, that is really an 
opportunity of four kids per school.
    Mr. Smith. So the solution is more programs?
    Mrs. Conwell-Dudley. More programs, and whether it is 
joining up with businesses, partnering with businesses. Like 
you look at Loudon County and all the businesses in that area, 
Aerospace Corporation, for one, is one my husband works with, 
but Boeing and Northrup Grumman. Maybe I am misrepresenting the 
names because they are merging so often, I can't keep up with 
them. But I am sure that they are engineers in businesses 
located within our areas who could partner with the schools to 
bring science into the schools, to make it more readily 
available.
    Mr. Smith. Good idea. Thank you.
    Thank you, Mr. Chairman.
    Chairman Hall. The gentleman's time has expired.
    I recognize Mrs. Fudge from Ohio for five minutes.
    Mrs. Fudge. Thank you very much, Mr. Chairman, and thank 
all of you for being here.
    Let me first congratulate all of the contest winners. You 
should be extremely proud of your accomplishments, and I am 
very proud of you. I hope you all pursue some career in a STEM 
field. We certainly need you, and I am looking for great things 
from each and every one of you.
    I would also like to thank our Chairman for holding this 
hearing, which clearly demonstrates the need for federal 
education reform and investment in STEM education. The schools 
represented here are home to brilliant young students. However, 
they also each represent some form of privilege or lack of 
accessibility. Discovery Montessori in Texas is a private 
school. Virginia Virtual Academy, while free to students living 
in Carroll County, Virginia, is a modern form of home schooling 
and requires significant parental involvement. Many of the 
struggling families in the United States are either single 
parent who cannot stay home with their students because they 
must work or two parents who must both work. Schools such as 
this simply are not an option for many low-income families. 
West Hills Middle School in Michigan, though public, has less 
than one percent of students eligible for free or reduced 
school lunches. In my district, just take the city of East 
Cleveland, that number is more than 85 percent. And finally, 
Stuyvesant High School requires students to take a standardized 
test for admission, which means expensive test prep courses for 
the students who can afford them, putting low-income students 
at a severe disadvantage. As a New York City public school, 
only 2.2 percent of students at Stuyvesant are African 
American. This number is incredibly low, especially considering 
that across all public schools in the city, 32 percent of 
students are African American. The numbers are even more 
drastic when you look at Hispanic students, who represent 40 
percent of the students in the New York City public schools but 
only 3 percent of the students at Stuyvesant.
    Clearly, this is not a level playing field, and I believe 
that it is our job to ensure that all students in this country 
have access to quality education and the opportunity to win a 
contest like ExploraVision.
    Now, to my question, which is for Mrs. Conwell-Dudley. 
Virginia Virtual Academy seems to be very effective in getting 
kids familiar with technology and interested in science. Do you 
think that there is some part of the curriculum which you use 
now in your home that could be transferred to students in the 
classroom setting that would have the same kind of an effect?
    Mrs. Conwell-Dudley. Absolutely. I think the Illuminate 
Live conferencing program could be used extensively in the 
schools. I don't see why it couldn't. it worked extremely well 
for us, and I am not that sophisticated. I am not that smart, 
but I am smart enough to know that our kids have got to be a 
lot smarter and so, you know, I am going to do everything I 
can, and I really think this program, the Web conferencing 
program, would be a great thing for schools to use.
    Mrs. Fudge. Thank you. I want to again congratulate all of 
the brilliant young people sitting here today, young men and 
young ladies, for the work you have done. You have accomplished 
a great deal. I hope that some day you will be sitting on this 
Committee talking to young people just like you. Keep up the 
good work, and to all of you who have assisted and mentored and 
encouraged, thank you as well.
    Thank you. I yield back.
    Chairman Hall. The gentlelady yields back her time.
    I recognize Mr. Bartlett, the gentleman from Maryland.
    Mr. Bartlett. Thank you very much. I want to use my brief 
five minutes to emphasize two areas. One is the importance of 
teachers, and the second, our need as a country to dramatically 
increase the number of our students going into science, math 
and engineering.
    It was a teacher who changed my life. I went to college in 
1943, Washington Missionary College in Takoma Park, Maryland, 
to become a medical missionary. My first degree was in 
theology, which has served me very well in Congress, by the 
way, because I learned to love the sinner and hate the sin. I 
was going to be a medical missionary so I had to take some 
courses to go to medical school, and I had a really fantastic 
teacher and I took all of his courses and enough other courses 
that when I finally graduated from college in 1947, that I had 
a major in biology and a minor in theology. I had a major in 
biology and a minor in chemistry. I went on to get a doctorate 
in science, and I taught for 24 years.
    Our youngest son of 10 children was a terrible student. He 
wouldn't pay any attention. We were going to lose him. Every 
year we would wonder should we keep Ross back. And finally it 
was a teacher in his sixth grade, a science teacher in the 
sixth grade that turned him on. Now, Ross graduated from UMVC 
number one in a class of 140 some engineers. He has five 
children, a Ph.D. He is returning to Maryland, thankfully, and 
he works for one of our big government labs. So here are two 
lives that have been dramatically turned around by teachers, so 
thank you, thank you very much for what you do.
    I was listening to the news this morning and I was reminded 
again of our priorities, which I think are pretty darn 
distorted. A Vancouver team lost. I have no idea who they are 
because I tuned out sports because I think they are kind of the 
equivalent of gladiators in Rome and we know what happened to 
Rome. But, you know, their team lost so they are really upset 
and they are turning over police cars and breaking windows and 
the riot police are out trying to quiet them down. I watch the 
White House and the people that they invite there and slobber 
all over and they are not scientists and mathematicians and 
engineers, they are not academic achievers, they are athletes 
and entertainers.
    This year, the Chinese will graduate seven times as many 
engineers as we graduate, and about half of our graduate 
engineers will be Chinese students. And by the way, they don't 
stay here anymore because there are plenty of good jobs back in 
China so they are going there.
    We represent less than five percent of the people in the 
world and we have a fourth of all the good things in the world, 
and I have a huge concern that we are not going to be able to 
retain our position as the premier economic and military power 
in the world if we are turning out one-seventh as many 
scientists, mathematicians and engineers as our competitor is. 
What can we do as a country to change the culture? Because, you 
know, you get a culture, a community, a society gets what it 
appreciates and we just don't appreciate our bright young kids 
in science, math and engineering. When I was a kid, they called 
us squares. That is an old term, isn't it? Now, what are you, 
geeks and nerds now? And, you know, pretty girls won't date 
bright boys and a really bright girl plays dumb to get a date. 
This is a really sad reflection on our society. What do we need 
to do so that we can capture the imagination of the American 
people and get more of our young people to go into careers in 
science, math and engineering. I know you won't be able to give 
an adequate answer to this in the minute and seven seconds we 
have remaining so I would encourage you to please write for the 
record something that will help us so that we will know what we 
can do here in this Committee to do a better job of turning on 
our people and getting more of our young people to go into 
science, math and engineering.
    Chairman Hall. The gentleman's time has expired. Do you 
have any figures on how many lawyers they are turning out over 
there?
    Mr. Bartlett. Actually, you know, I go to groups of young 
people and I ask them what they are going to become, and they 
are going to become lawyers and political scientists. Now, we 
have enough of both of those, quite enough of both of those, 
don't you think? We just need to turn that around. A society 
gets what it appreciates. We just don't appreciate science, 
math and engineering, but that is what makes the wheels go 
around and, you know, that is going--if we aren't able to get 
around this, we are not going to be number one.
    Chairman Hall. Your point is made.
    Mr. Bartlett. Thank you, sir.
    Chairman Hall. We have about 18 votes in another 15 
minutes. We are going to try to go on through. Mr. Clarke, the 
gentleman from Michigan, I recognize you for five minutes, five 
quick minutes.
    Mr. Clarke. Thank you, Mr. Chair.
    I am from the city of Detroit. I represent metropolitan 
Detroit. I am on this Committee at the recommendation of 
Representative Peters, who is right here who is your Member of 
Congress, and I just want to thank West Hills Middle School for 
making us really proud in Michigan.
    This is a little personal story. This is really to Claudia 
and to Samantha. You know, when I was growing up in elementary 
school, I was one of the few kids that had asthma, so I went 
back and visited, you know, some of these elementary schools 
now that I am an elected official. I remember asking one class, 
anybody raise your hand if you have asthma. Half the class 
raised their hands. And where I was raised too, you know, we 
have an incinerator right near us a few blocks away, and we had 
plants there. My dad used to work in the Rouge plant. So a lot 
of people have breathing problems because the contamination, 
because of pollution, because we smoked cigarettes and my dad 
smoked them without filters before he realized that it was a 
problem. This was a long time ago.
    So the fact that you have created a prototype of a way to 
provide people with oxygen who need it without having to carry 
those big tanks, that is going to really give people a lot of 
freedom because a lot of us, more and more people are growing 
older and living longer and will likely have to live with these 
chronic breathing problems.
    My question, and if I could, Mr. Chair, I would like to 
just ask this to Claudia and also Samantha. I know you are not 
sitting, but after Claudia responds. What did you either enjoy 
the most out of developing this intra-trachea device enjoy or 
learned about it the most or what you got out of it? I am just 
curious. Now, here is the reason I am asking you this. Because 
in your answer will probably be the actual value that other 
students would get, and that would probably encourage them to 
do this type of research that you are doing right now that can 
actually save people's lives, or at least give somebody a 
better quality of life as they grow older.
    Miss Cooper. Well, thank you, Mr. Clarke. Our inspiration 
actually came from my grandma, who was oxygen dependent for the 
last few months of her life, and as you were saying, it weighs 
down your freedom, and this device would hopefully restore that 
freedom and let patients do what they want to. It is the sheer 
joy of knowing that there are possibilities out there, like I 
said before, and that our minds, our generation can do that. I 
think working with Samantha was one of the most amazing parts 
of it because she is so funny and she is very, very bright, and 
we couldn't have done it without her. I think just opening our 
minds, because neither of us were very into science before this 
competition, and when we first heard of it, it was just an 
assignment. It was not anything that we wanted to do 
necessarily, but once we started going, we saw how incredible 
this competition can be and how great this is.
    Mr. Clarke. Wonderful. And if possible, if Samantha, you 
could just come up and share with me your experience about 
doing this research.
    Miss Tarnopol. Well, I would probably say most of the same 
things as Claudia because we did most things together, but I 
learned so much from this competition because before this I was 
really not into technology, and I was not--and I learned so 
much from this and I learned so much about our invention, and I 
really like helping people, so it is probably what I would say 
the most.
    Mr. Clarke. Well, this is wonderful. I am going to yield 
back my time, but I think we have got the answer. So all the 
students right now who are watching this, you don't even have 
to be into science or math or technology, but if you want to 
help somebody, you see somebody that you know has a problem, 
could be in your family or a friend of yours, this is a way to 
really help them and help a whole bunch of people fast is to 
get involved in these projects, so that could be it. Let us not 
worry about the science and the math and the technology. Let us 
try to help people, and that way we can actually help our 
country. Thank you so much.
    And also, the last point, I wanted you to testify so you 
would get used to this so when you come up here, if you choose 
to do this in a few years from now, you have already had the 
training.
    Chairman Hall. The gentleman yields back. Thank you, 
Claudia and Samantha. They call you Sam or Samantha? Good 
testimony.
    At this time I recognize the gentleman from California, Mr. 
Rohrabacher, for as much of five minutes as he wants to use.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman, 
and let me just note that I did not do well in math and science 
when I was a kid. I wish I would have, and I think that if I 
would have done better in math and science, I wouldn't be here 
today. But I want you to know, the only good side of that story 
is that I did not become a lawyer. In fact, when I ran for 
Congress the first time, my most effective slogan was: vote for 
Dana, at least he's not a lawyer.
    And I want to segue in with the kids on this. You know, the 
bottom line is that kids can see what our priorities are in our 
society, and they notice that lawyers are the ones with the 
nice houses and nice cars and a lot of times they see the 
engineers as not having such a nice reward for this profession 
that they have chosen. I believe the way we get more engineers 
and more scientists and such is we pay them better, and how we 
pay them better is, we just make sure that our own children 
have the opportunities to get good jobs that pay well, and I am 
sorry to bring up other issues, but the fact is, we seem to be 
bringing in people from all over the world in order to depress 
the wages of our engineers and our scientists when instead we 
should be elevating the pay of those people who are teaching 
science and those people who get into science and engineering. 
So that is just a couple thoughts.
    I also am a little bit concerned that movie stars and 
athletes, you know, they make huge amounts of money and 
everybody knows that, and people will begrudge an inventor the 
money that he gets from a patent. I mean, the fact is, it is a 
good thing for someone to invent something that changes the 
lives of so many people, and for that person to benefit by 
making a lot of money from a patent is a good thing, and you 
would not believe how much we have got here where the powers 
that be are coming down on these small inventors for insisting 
that they get a royalty for what they have invented, and there 
is a big patent fight looming right now in Congress where some 
of us are trying to protect the little guy, the small inventor, 
and there are other people who have a lot of interest here who 
are, you know, protecting the interests of some big corporate 
leader who started off as a lawyer, of course.
    But with that said, I think that we can make scientists and 
inventors cool, and I want to ask the kids whether or not our 
engineers and scientists, people who are engaged in these types 
of things, are they considered cool by your fellow classmates 
now or, no, they are not. I am seeing heads shake. What about 
you, Marcelo? Do some of your classmates look at someone, an 
engineer or a scientist, as someone who is cool?
    Master Vidal. Well, after my mom does, like, a magic show 
but it is really engineering, all my classmates are like, oh, 
wow, that is so awesome.
    Mr. Rohrabacher. All right. There you go. Hey, dude, that 
is great.
    Master Vidal. Yeah.
    Mr. Rohrabacher. Jack, what about you? What do your fellow 
students think about it? Is it cool to be an engineer or a 
scientist?
    Master Dudley. My dad, he is an aerospace engineer, and 
whenever I told my friends about it, they would always be wowed 
about that and they thought it was really cool that I was able 
to see a rocket launch and they thought engineers actually were 
very cool.
    Mr. Rohrabacher. Oh, that is great. Okay. All right. 
Claudia?
    Miss Cooper. Well, you know, I am in that squirrely 
seventh-grade time where it depends what you mean by cool, but 
I guess, when Mrs. Attard first started the unit showed us 
inventions that were created and asked us if we knew who those 
inventors were, and after she gave us the names and we said oh, 
yeah, that is kind of cool, and then of course he is before our 
time a little but she showed me Bill Nye, the Science Guy, the 
TV show. So I think that is what really triggered our minds, 
and bringing the competition into our school kind of set off--I 
mean, there were people who went home, they went on Google, and 
they went on Bing and they typed in who invented the microwave 
and they would come to school the next day and share it with 
everyone. So I guess that is kind of what----
    Mr. Rohrabacher. Okay. All right. Alison?
    Miss Reed. I go to Stuyvesant High School, which is a very 
science-oriented high school, and we are kind of nerdy, so I 
don't know if we really represent everyone, but to become an 
engineer, a lot of kids aspire to be a scientist, and a lot of 
our parents are scientists or engineers or doctors, and 
everyone admires their parents so much and I think everyone 
really admires scientists.
    Mr. Rohrabacher. Okay. That is cool. Being admired is cool. 
Let me just say, I admire each of you, and my heroes are people 
who have come up with things that have changed people's lives 
for the better, and too many times kids hear only the negative 
side, how horrible things are getting. Well, you should also 
know and be taught about what great opportunities we have to 
make things better, and you are the kids who are going to make 
it better, so congratulations for participating in these 
wonderful projects and all the good things you are going to do 
now for the rest of your life. Thank you.
    Chairman Hall. The gentleman's time has expired. In defense 
of lawyers, I will tell you a quick story. A guy was making a 
speech and he said I hate all lawyers, they are all geeks, and 
a guy in the crowd said I object to that, and he said well, I 
am sorry, I didn't mean to offend you, are you a lawyer. He 
said no, I am a geek.
    The chair recognizes Mrs. Edwards.
    Mrs. Edwards. Well, thank you, Mr. Chairman, and to the 
Ranking Member, I feel that there has to be some redemption 
because, you know, as my colleagues know, I spent several years 
as a systems engineer working on the Spacelab program at 
Goddard Space Flight Center and then I became a lawyer and now 
I am in Congress. There is a lot of redemption going on out 
there.
    But I am just so excited to see all of you here, your 
educators, your mentors, your parents, and of course the 
students, and I think when we ask ourselves, you know, are we 
going to be okay in the next generation, the next decades, I 
think we look at you young people and we know that we are going 
to be just fine because we will be in your hands. So thank you 
very much for your participation today and your testimony.
    Like the Ranking Member and our Chairman said, education in 
the STEM fields is really important to me. I mean, I see, you 
know, all across this country that it is really clear that the 
challenges of the future are going to be solved by us grabbing 
ahold of technology for the 21st century, and the way that we 
do that is to educate in our STEM fields, and, you know, 
although I know that some of my colleagues have expressed, you 
know, concern about whether these same kinds of things can take 
place in a public school setting versus a private school 
setting, I think it takes the collection of that to happen, and 
I think as parents, and I know as a parent that my goal was to 
just find the best place for my child to be educated because I 
always described that our children aren't science experiments 
but they are works in progress and what works for one child may 
not work for another, even though I recognize that the vast 
majority of this country's children are going to be educated in 
our public schools and so we have to figure out a way that we 
can get that right in the STEM fields.
    In my Congressional district in my state, we are home to 
some of the best science and technology supported by government 
and our private sector any place in our country. We are home to 
the Goddard Space Flight Center, NASA's premier program around 
the earth sciences, and NOAA, that helps us figure out our 
weather and climate across the country and around the world, 
the National Institutes of Health in Bethesda, Maryland, where 
so much good work is coming out of there, and the National 
Institute of Standards and Technology, and I know I look to all 
of these agencies and the various private sector corporations 
that develop around there to also have a robust relationship 
with our school system and with our young people because I 
think it is important for us to figure out how we take some of 
that private sector energy that you mentioned, Dr. Lozano, and 
that we channel that into a relationship with our schools, and 
that is not always an easy relationship because sometimes we 
create barriers that make it difficult for those who are in the 
STEM fields and professions to participate actively in our 
school system, so I think that we have to figure out ways that 
we can better encourage those things.
    I just really have--and there is a bell, but I am not out 
of time yet--really just one question for the students, and I 
wonder if each of you can tell me the other things that you do 
in addition to your work around science that contributes to 
your learning, whether it is arts or music and sports that 
means that we are really developing whole children. Go right 
ahead.
    Master Vidal. I do swimming one hour a day Monday, Tuesday, 
Wednesday, Thursday, Saturday morning with Davin all the time, 
and I just finished the soccer season, so now I am watching TV.
    Mrs. Edwards. All right. Well, thank you.
    And Jack, what about you?
    Master Dudley. I play piano. I take Chinese. Occasionally I 
will play flag football, and my swimming season is just about 
finished, and me and two other teammates are on a robotics 
team.
    Mrs. Edwards. Congratulations.
    And Claudia?
    Miss Cooper. Well, I go to summer camp in the summer. I do 
a lot of acting in musicals, and I play a little tennis. I do a 
lot of extracurricular stuff at school, a lot of community 
service, and I actually do a little bit of circus performing 
arts too.
    Mrs. Edwards. Excellent. Thank you.
    Alison?
    Miss Reed. I do a lot of art, and that really helps me 
visually and that helped me on the project with realizing what 
everything would look like and how it would be structured. I 
play sports. I play tennis and I swim and I play the piano, and 
yeah.
    Mrs. Edwards. Well, thank you all very much for being here, 
and I think what that indicates is that we have a lot to do to 
educate the whole child in addition to what we are trying to 
develop in the science and STEM fields. Thank you.
    Chairman Hall. The gentlelady yields back her time.
    I thank all the witnesses for their very valuable 
testimony, all of you and your input. The members of the 
Committee might have additional questions for any of you, and 
we will ask you to respond to those in writing if they write to 
you. The record will remain open for two weeks for additional 
comments from members.
    I want to recognize Ms. Johnson for a minute; however, she 
needs a quick response. I recognize you at this time and then I 
will dismiss you.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I want to say to Alison and Claudia, Jack and Marcelo and 
Samantha and all the rest of you that I have not learned your 
names, you have been really a spark in my life this morning 
because we struggle so hard to try to pinpoint what direction 
we need to go to make sure that this quality education is 
available, and you are letting us know that you are some of the 
examples of what we strive for, and so I want to thank you, 
thank all the teachers and parents who are here. We really 
honestly do depend on you to carry our future, and I just want 
to thank you for what you are doing and keep it up, and 
encourage many more to join you. Thank you.
    Chairman Hall. Well said, and thank you. The gentlelady 
yields back her time.
    Let me remind everyone that science fair and all of these 
teams and their projects are in the Rayburn Foyer from 12:30 to 
2:30, and that is on the first floor, so I am going to be there 
and I am going to try to ask Jack if he missed the girls more 
than he did the boys or the boys more than he did the girls. So 
I have some good questions to ask you, Jack. I hope I see you 
down there.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:37 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Karen Lozano, Professor at University of Texas Pan 
        American,
Mentor to the I.Streets (Intelligent Streets) Discovery Montessori 
        School Team, 
McAllen, Texas 

Questions submitted by Chairman Ralph M. Hall

Q1.  We need the best and brightest to become scientists and 
mathematicians, but we also need the best and brightest to become 
teachers of all subjects, particularly math and science. What do you 
think we could do to encourage more bright and articulate students to 
consider education as a profession?

A1. Something that I have implemented (following my professor from Rice 
University, Dr. Barrera) at The University of Texas Pan American is to 
have my research assistants (Undergraduate and Master students) help me 
when I give magic and science shows to K-12 students as well as helping 
with the development of the activities that we will present. These 
activities expose engineering students to K-12 student learning 
experiences and several of my students had chosen teaching middle and 
high school. National Science Foundation had a program called graduates 
into K-12; this program promotes faculty to be very creative as to 
activities where their STEM graduate students participate in education 
related activities and possible could ignite the students to consider 
teaching as a profession but if not, it leaves in them the knowledge 
and experience that they have to be involved with the community. Such 
programs are very important to promote teaching experiences while 
developing a passion to work with K-12.
    Engineers are quite practical people in nature; the current 
environment in K-12 education where teachers are heavily restricted by 
many rules and regulations imposed into their curriculums and the need 
to teach for standardized tests drives them away from this honorable 
profession since some experience a level of frustration and either 
decide to leave the profession or they do not consider it. Teachers are 
the core of the education process and their focus and energies should 
go to their students though they feel that administrators are now their 
primary customers. If their students were their primary customers, even 
larger size classrooms could be handled; all my education from 1-12th 
grade I was in classroom of 50 students and one teacher though we were 
the focus of the teacher not filling up forms and forms for evaluators 
and so.

Q2.  What elements of your pre-service or in-service training have been 
most helpful in meeting the daily demands of working with students, 
developing innovative classroom strategies, and delivering content-rich 
instruction to students of all levels and abilities?

A2. In reality I have never taken courses aimed at developing 
pedagogical techniques, though having been exposed since my fifth-12th 
years as a volunteer (well, in high school and college as required for 
all as community service hours) to teach younger students religion, 
math, crafts, and organization skills to build/beautify schools and 
rural areas (paint buildings, cut grass, repair streets, etc). Then 
having experienced as a graduate student the opportunity to do science 
and math with younger students has allowed me to develop the ability to 
communicate simple and complicated issues to people of all ages. It is 
important to present practical, real life issues as examples; students 
can then identify abstract facts and think of possible solutions. Once 
students are engaged and understand the problem they can work on a 
solution. Personally I experienced situations where I never understood 
the problem though learned the complicated math and sequence to obtain 
a correct answer without ever understanding (at that time) what I was 
doing.

Q3.  As a parent and mentor, what were the biggest challenges for you 
helping the students with their projects?

A3. The biggest challenge when working with my own children as a mentor 
is the fact that I expect more of them and set the expectations quite 
high. I am present to guide them in their brainstorming process, and 
help them divide the tasks though they have to do all the work, and I 
quizzed them quite often in their acquired knowledge, when they are 
ready to think on how their ideas could work in the future I explain to 
them science concepts that are usually way too elevated for their age 
so I have to prepare the material in a way they could grasp it. After 
that they are again on their own to continue with their project; K-
third grade students need much more help than fourth-sixth or older 
students. The older they are, they basically work on their own after 
initial meeting. Working with the ExploraVision objectives is quite an 
easy process; the rules have been very well thought of and are clear 
and easy to follow, not to mention the ``award'' that students can get; 
this motivates them considerably.

Q4.  You are a college professor and testify that you mentor in a 
number of ways beyond ExploraVision. Can you please expand on these 
community activities and your experiences? How many students and 
teachers do you think you influence each month with your lab tours, 
talks, and magic and science shows? Who is funding these activities or 
do you volunteer your time?

A4. I strongly believe that engagement with K-college students is an 
important mission of a faculty member; we have been very blessed and 
have worked so hard to obtain an advanced degree that it is a 
responsibility to communicate the walked path. As many kids, I also had 
a childhood where ``money'' was not around, there were many, many 
sacrifices that my family went through for education (it was always a 
top priority), the schools that I attended did not have air 
conditioning, even less heaters, we had windows! I try to communicate 
to all kids the importance of appreciating everything, they have what 
is needed in school, so with my presentations I try to instill in them 
a ``possible dream'' and a sense of appreciation.
    I do several ``Magic and Science'' shows where I do demonstrations 
and explain the science behind while asking questions as to what 
practical application they see. These presentations are on an average 
one per month of about one and half hour. They can be either at the 
University where students take time to tour the facilities, or I go to 
the school and conduct the presentations either in gyms, cafeterias or 
classrooms. Have also participated in Parent Nights where I do similar 
presentations to parents and talk about college opportunities while 
sharing my own experiences as a female in a male-dominating field. 
ExploraVision is a type of ``one-on-one'' mentoring activity since the 
benefitted kids have been at the most eight per year though this year 
have been invited by a school that will start an ExploraVision club 
where the participation will be mandatory, and I will host several 
weekly sessions on innovation and creativity classes. Have also 
developed some experiments to teach science to fourth-sixth grade 
students where I attended their school every other Friday and offered 
practical examples of the concepts they were learning during the week. 
I did this in a private school given the opportunity for the teacher to 
accommodate the hours without affecting the required curriculum, it was 
very well received by students. Have also worked with Region I and 
several programs such as TexPrep, ABC of Science, Science camps and so. 
I could say that about 1,000 kids are influenced per year, with about 
10-20 teachers. National Science Foundation had funded most of the 
activities and many others are as a volunteer.

Question submitted by Representative Randy Neugebauer

Q1.  The students before us today seem to have a genuine interest in 
the projects they have undertaken, and they appear to enjoy taking the 
initiative to learn and better themselves. What techniques do you find 
are most successful in encouraging students to become engaged in math 
and science projects? How should we be capturing the imagination of 
young students through STEM programs?

A1. Young students are the easiest to work with since by nature they 
are scientists and engineers, they like to observe and experiment with. 
The best technique is to show them something exciting such as an 
experiment with liquid nitrogen or a chemical experiment such as the 
``elephant toothpaste.'' Then I tell them that if they succeed in their 
math and science classes, they can later come to play with such 
experiments when in college. I make sure to tell them that many times 
they might ask themselves why are they learning some aspects of math or 
science, for example when learning algebra, at that time it might seem 
useless and they might not find an answer as to the importance of 
learning such material though I tell them that in order to be able to 
experiment as I do, they need to develop an analytical mind (a problem 
solver ability) and the only way to do it is to solve many, many, many 
math problems, such as swimmer who swims miles and miles to develop 
muscles and abilities to compete in a 100-yard event. Same with their 
brain, a problem solver ability will develop only after mind training. 
So I ask them to see homework and math as training for their brain. As 
for ExploraVision kids, I tend to invite them to my lab at the 
beginning so they can get excited into solving problems.
Responses by Mrs. Brenda Conwell-Dudley,
Mentor to the Heads Up! Virginia Virtual Academy Team, 
Leesburg, Virginia 

Questions submitted by Chairman Ralph M. Hall

Q1.  We need the best and the brightest to become scientists and 
mathematicians, but we also need the best and the brightest to become 
teachers of all subjects, particularly math and science. What do you 
think we could do to encourage more bright and articulate students to 
consider education as a profession?
A1. As the daughter of two public high school teachers, I can tell you, 
based on my parent's frustration with the U.S. education system, that 
the following issues dominated conversations at our dinner table:

    <bullet>  Men and women who entered the teaching profession 
(regardless of the subjects they taught) to have their summers off. Men 
and women who entered teaching because it was ``easy'' and because they 
couldn't get fired. Men and women who had little or no interest in 
teaching as a profession, or working with kids, in general.
    <bullet>  Students who wanted a ``B'' for showing up to class and 
an ``A'' for handing in homework-- regardless of quality. Parents who 
felt the same way. High school students who were incapable of writing 
coherent sentences and complete paragraphs.
    (Note: My parents consistently taught in predominately white, 
middle class to upper-middle class high schools.)
    Encourage the best and the brightest into teaching by giving them 
and highly sought after teachers MORE AUTHORITY, RESPECT and BETTER 
PAY. In hard-to-staff schools, set up the hiring process like a four-
year stint in the military and keep cycling in new and motivated young 
teachers by providing great benefits and compensation. Reduce the 
Administration staff ranks. Cycle the poorly performing teachers into 
adult education where they will be held more accountable or simply let 
them go.

Q2.  As a parent and mentor, what were the biggest challenges for you 
helping the students with their projects?

A2. The biggest challenge for me was motivating my students by engaging 
them in conversation and research without also having to entertain 
them. We live in an entertainment and celebrity obsessed culture; all 
of our children are being raised on a steady diet of televised dance 
and singing contests, YouTube stupidity and video gaming. I had to 
constantly challenge my team to stop waiting for me to lead the 
discussions and to stop expecting that every science meeting would be 
``fun.''

Q3.  As a mentor to the HEADS UP! Helmet team, what role did you play 
beyond being a parent to Jack?

A3. I set up the team schedule and I conducted all of the team 
meetings. I assisted the team, when necessary, with their research, 
brain storming, project selection, delegation of work and research 
efforts, model building, Web site design, and video development. I was 
with the team at every step of the process.

Q4.  You commented on how impressed you were with the ability of your 
team to come up with novel ideas, such an integral piece of this 
competition. Can you talk about how you helped the students drill down 
on their broad concepts, or did you have to help them do that at all, 
perhaps it was a normal part of the process?

A4. As a mentor, I wanted to initiate the students as to the importance 
of following what is going on in the world. I've mentored two winning 
teams, and I've learned that children in this age group (Grades four-
six) really need an adult to help them focus their attention on the 
issues that are important to our nation and our planet. That is why 
this year's team started their initial research by reading current 
issues of the Washington Post. Most children I've encountered do not 
read newspapers, news magazines, and they do not follow the news in the 
media (online, televised, etc.) nor do their parents. My son follows 
the news on a daily basis and he is quite well informed; he is 
particularly interested in U.S. military efforts in Libya right now. 
I'm guessing he knows more about current events than some adults.

Q5.   . . . What techniques did you find are most successful in 
encouraging students to become engaged in Math and Science projects? 
How should we be capturing the imagination of young students through 
STEM programs?

A5. Answer: P-U-B-L-I-C-I-T-Y. If science and math students received as 
much publicity and public adoration as football players and 
cheerleaders, we would have a surplus of engineers and scientists in 
this country.
    Case in point: When our science team won first place in this year's 
Toshiba ExploraVision Science Competition, our local paper, Leesburg 
Today, printed a bulletin about the team that was 1" tall by 2" wide--
no photo--and our team's accomplishment was buried at the back of the 
paper. At the very same time our press release was available, Dr. 
Ballard of the JASON project (a program designed to excite and engage 
middle school students in science and technology) was lecturing in the 
Leesburg area on the importance of STEM education. It was so 
heartbreaking to see, that in spite of our team's hard work, the 
article that ran adjacent to the article highlighting Dr. Ballard's 
work and his plea for more students in the sciences, was a lengthly 
article about a new skateboard park, complete with a large color photo 
of a teenage boy doing a very dangerous flip on a curved ramp . . . 
without wearing a HELMET!
Responses by Mrs. Amy Attard, Science Teacher and Coach, 
to the I-TBS: Intra-Trachea West Hills Middle School Team, 
Commerce, MI

Questions submitted by Chairman Ralph M. Hall

Q1.  What inspired you to become a science teacher?

A1. I wanted to become a science teacher because of the inquiry-based 
experience I can provide for students. I love the hands-on application 
of science, along with the real-world connection that science can allow 
students to discover. Part of my inspiration came from knowing that I 
can gear my instruction using an inquiry based model, and I can 
encourage students to ask questions and apply what they are learning in 
science to their everyday life, which makes it more meaningful and 
relevant. The science curriculum sets the stage for exploration, so to 
be able to watch students learn and go above and beyond the curriculum 
because they are excited and curious is what inspires me on daily 
basis.

Q2.  What elements of your pre-service or in-service training have been 
most helpful in meeting the daily demands of working with students, 
developing innovative classroom strategies, and delivering content-rich 
instruction to students of all levels and abilities?

A2. I was very fortunate to have had an amazing college experience that 
provided numerous opportunities for me to go into classrooms across 
many different school districts, grade levels, and subject areas. This 
diversity allowed me to see different teaching styles, programs, 
strategies, and classroom management techniques that I was able to pull 
from and apply to my own classroom as a teacher. It was through these 
pre-service opportunities and my student teaching that I was really 
able to have a hands-on experience and begin to apply everything that I 
learned and read about in my education classes to the real science 
classroom. In addition to my pre-service experiences, now as a 
professional working teacher I can also say that I learn everyday from 
colleagues. I work on a team with other professional educators who have 
the students' best interests and needs as a top priority, and through 
our daily communication and collaboration I continue to grow as an 
educator every day.

Q3.  We need the best and brightest to become scientists and 
mathematicians, but we also need the best and brightest to become 
teachers of all subjects, particularly math and science. What do you 
think we could do to encourage more bright and articulate students to 
consider education as a profession?

A3. Students look up to their teachers as role models, and I think that 
teachers need to encourage students to go into education as a 
profession. Students watch their teachers' every move, and if a teacher 
is showing they are enthusiastic and enjoy what they are doing 
everyday, then that can encourage students to follow in the steps of 
their role model. Communication about career education and 
opportunities for professional growth as an educator are conversations 
teachers need to have with their students to encourage and inspire them 
to take on the challenge of educating the next generation so they, too, 
can have a good-quality educational experience.

Q4.  A hallmark of a good teacher, it is said, is the ability to 
inspire curiosity in students. In my own experience, I have found that 
students are naturally curious--born scientists, really. Yet many older 
students do not like science or math and are not particularly 
interested in it. What happens to that spark, that natural curiosity? 
How do we re-ignite it for those who have had it extinguished? And how 
do we fan the spark for those who still have it?

A4. I think as students get older they have more demands and pressures 
placed on them to do well, pass tests, get into a good college, and 
land a good job, so students are still curious but don't have extra 
time in their day to explore their curiosity. Unfortunately, as 
students get older, doing well on tests take precedence over 
exploration. I think that offering classes throughout the school day 
that partner with local businesses that revolve around an area of 
science is a great for students to see how they can use science once 
they are out of the classroom and regain their enthusiasm for the 
subject. Furthermore, this type of educational experience can really 
open doors for students to explore their curiosity and redevelop their 
passion for science because they will once again be able to see its 
relevance to the real world. For those students who still have a 
passion for science, offering extra-curricular programs, clubs, and 
competitions for students to get involved in will provide additional 
opportunities for students to test new ideas and further explore their 
curiosities about science education so they can continue to enjoy 
learning about science outside the classroom.

Q5.  It is interesting that West Hills Middle School uses ExploraVision 
as an interdisciplinary activity, involving both science and language 
arts. Do you know how many other teams make this a multi-subject 
activity? How many teams did West Hills support this year? Do you limit 
the competition to seventh graders at your school, or do you encourage 
other grades to participate?

A5. Making the ExploraVision competition an interdisciplinary project/
unit was new this year, and we plan on using the same model in future 
years because is was so successful. Unfortunately, I am unaware of any 
other teams outside of our own that took this approach to the 
competition and would highly recommend it for future teams. This year 
we had just fewer than 50 teams take part in the competition, which 
represented every seventh grader at West Hills Middle School. As of 
today the competition only takes place in the seventh grade because it 
aligns with the seventh grade science and language arts curriculum; 
however, we encourage students to participate in the competition as 
eighth graders who want an additional science challenge and experience, 
since they have already been through the process and don't require the 
direct teaching that takes place.

Question submitted by Representative Randy Neugebauer

Q1.  The students before us today seem to have a genuine interest in 
the projects they have undertaken, and they appear to enjoy taking the 
initiative to learn and better themselves. What techniques do you find 
are most successful in encouraging students to become engaged in math 
and science projects? How should we be capturing the imagination of 
young students through STEM programs?

A1. I find that any real-world connection I can make encourages 
students to become engaged. Whether it is through open-ended unit 
questions, music, television, video games, or live demonstrations I can 
do in front of students, as soon as they can apply what we are 
discussing or learning in class to an area of their life outside of 
school their motivation and excitement skyrockets. STEM programs 
provide the opportunity for students to become problem solvers, and I 
find that when I pose a competition like ExploraVision to the students, 
I have them wear the hat of a problem solver and look at their own 
life. Personal buy-in can add to engagement and motivation so if 
students can reflect on what we currently have today and follow a 
problem-solving process, similar to an engineer, they have a drawing 
board to change their future for the better.
Responses by Ms. Anne Manwell, Science Teacher,
Mentor to the 3Drenal: Kidney Bio-Printer Stuyvesant High School Team,
Brooklyn, NY 

Questions submitted by Chairman Ralph M. Hall

Q1.  It is impressive that Stuyvesant High School can count five Nobel 
Laureates amongst its alumni. Clearly, you are doing your part to 
inspire future generations, but you make a valid point that students 
must be well prepared in elementary and middle school in order to 
attend your school. What is your current enrollment and do you have to 
turn students away? How many different schools feed into Stuyvesant and 
are they specialized schools as well? Please expand on the make-up of 
the student population at Stuyvesant.

A1. Stuyvesant High School is one of eight selective NYC Public High 
Schools that rely on the Specialized High School Admissions Test. 
(LaGuardia HS is a ninth specialized school that admits students by 
portfolio or audition.) In the fall about 26,000 (yes, twenty-six 
thousand) eighth graders take this test for the approximately 5,300 
seats available. They also list three schools in order of their 
preference for admission. 24,000 students named Stuyvesant as one of 
their preferences. This past spring Stuyvesant offered 961 students 
seats for the Class of 2015. Of these 816 accepted. These students came 
from about 150 NYC public middle schools and 30 private/parochial 
schools. But six public middle schools contributed over 40% to the 
class. Two are magnet schools for the Gifted and Talented, and three 
others have a math/science leaning as their names indicate, Christa 
McAuliffe, Pasteur and Curie.
    Congresswoman Fudge was correct in identifying the low percentage 
of our black or Hispanic students, but that does not reflect the other 
minority groups served by the school. The first group are students from 
families falling below the poverty line. Stuyvesant HS receives Title 1 
funding as do four of our larger feeder schools. About 45% of students 
qualify for free or reduced-fee school meals. This means limited family 
funds available for ``expensive'' test prepping.
    Surnames of Stuyvesant's graduating classes from the early 20th 
century are a pretty good indicator of the prominent immigrant groups 
in NYC, and that has continued into the 21st century. Therefore, the 
next minority group is our immigrant/first generation population, which 
is reflected by 72% of the Class of 2015 identifying themselves as 
Asian. ``Asian,'' of course, lumps together everyone with roots from 
Turkey to the Far East. Chinese and Korean students were the first to 
show up in NYC and Stuyvesant. Now there is a noticeable rise in 
students from Pakistan-India-Banglagesh area. Tied to this is the home 
language of our students. Indeed, of the three students on the 3Drenal 
team, David speaks Russian exclusively to his parents, and Norine 
speaks Mandarin to her grandmother who lives with her. At parents' 
conferences, about a fourth of parents I see bring someone to translate 
for them. And another fourth probably should have!
    The final group served by Stuyvesant is a minority in STEM fields, 
girls. Every student, not just the XY individuals, graduating from 
Stuyvesant must have completed a pre-calculus or advanced algebra 
sequence and four years of science. Our Robotic Team has had girls in 
Chief Engineer positions. Science Olympiad officers and captains have 
been girls. I cannot give you the percentage of girls who have taken AP 
classes in STEM areas because of summer recess, but two-thirds of my 
Advanced Topics Research class were girls and 60% of a research track 
Molecular Science course were girls.
    I will not pretend that Stuyvesant students are not elite. They 
have been selected for this. Certainly, not all of them represent 
minority groups but many are poorer than their classmates, from 
families newly arrived in America, or are under-represented in STEM 
fields.

Q2.  Do you know what percentage of your students attend college? 
Pursue a STEM degree? Pursue a graduate STEM degreee or enter a STEM 
field?

A2. Stuyvesant has consistently seen 99+% of its graduates go on to a 
four-year college and mostly to tier one colleges. Neither the College 
Office nor the Alumni Association keeps rigorous data on the areas that 
our graduates enter, but there was a survey done in 2004, the 100th 
anniversary of the school's opening, that asked alumni what career they 
entered. I've gone through that data base and pulled out occupations 
consistent with a STEM undergraduate degree. Of the 9,200 alumni 
reporting, 38% listed occupations from accounting to veterinary 
medicine. I am unable to get a number of advanced degrees in STEM 
fields, but 550 reported being physicians/surgeons and another 270 were 
university professors, with their field unnamed.

Q3.  What elements of your pre-service or in-service training have been 
most helpful in meeting the daily demands of working with students, 
developing innovative classroom strategies, and delivering content-rich 
instruction to students of all levels and abilities?

A3. I think that the key to your question is ``delivering content-rich 
instruction to students of all levels.'' A teacher must know her 
subject matter. Therefore, the most important element in my pre-service 
training was a BS degree with a major in biology (36+hrs.) and a minor 
in chemistry (20+hrs.) and an MS in biology (49 hrs.). This strong 
background in science allows me to ask questions that direct students 
in their study. If a bright sixth grader questions gravity, I can draw 
on this background knowledge to ask the student when gravity kicks in 
as he walks along a line on desktops. Similarly, I can lead a student 
with a weak background in science with questions that break down the 
topic into manageable bits.
    The most helpful element in my in-service years has been a program 
at NYU. Directed by developmental biologist Malka Moscona, a promoter 
of ``life-long learning,'' Recent Advances in Science Seminar Series is 
a monthly Saturday morning session at which research faculty from NYU 
and other research institutions present their current research to NYU 
School of Ed students, high school teachers and students. The 
atmosphere is informal--``stop me anytime for questions''--and some 
really cool stuff is presented--Harold Varmus told us about Gleevec. I 
can keep current and network with professional scientists and other 
teachers and students who attend bring back to the classroom a bright-
eyed enthusiasm for research.

Q4.  We need the best and brightest to become scientists and 
mathematicians, but we also need the best and brightest to become 
teachers of all subjects, particularly math and science. What do you 
think we could do to encourage more bright and articulate students to 
consider education as a profession?

A4. That's a hard sell. Bright kids interested in STEM areas who are 
entering college want to work in STEM areas. It is probably easier to 
recruit potential teachers in their post-graduate years or after they 
have worked in their field for a while. Not only will they be more 
experienced, they probably be more mature and more able to cope with 
the rigors of the classroom.

Q5.  What inspired you to become a science teacher?

A5. Two instances when I was working at Memorial Sloan-Kettering Cancer 
Center probable played important roles propeling me into the classroom. 
First when my son was in kindergarten I got a mouse from E. A. Boyce, a 
section head there, to put into a ``Science Box'' for Paul's class. At 
each side of the box the kids were encouraged to use one sense to 
describe what was in the box. Chandradat used his sense of smell to 
discribe an open field! Wow, that was cool! The second event was when I 
was volunteering at a Brooklyn non-profit, Project Reach Youth. Their 
afterschool program worked with disadvantaged youngsters and I would 
bring in some science project on occasion. One time I brought in 
different types of fish and we were going to look at different scale 
types, body shapes and fin arrangement. The take-home part was a crayon 
rubbing of a fish. Everything was going fine except one little boy 
grumpily said ``I can't do this!!'' ``Yes, you can. Hold down the tail 
and paper with this hand and use the crayon in this hand.'' Only later 
when he was happily displaying his rubbing did I notice that he had 
little use of his hand! If I could influence these two little kids to 
see and do something in science with these little projects, maybe I 
could do it on a larger scale by becoming a teacher.

Question submitted by Representative Randy Neugebauer

Q1.  The students before us today seem to have a genuine interest in 
the projects they have undertaken, and they appear to enjoy taking the 
initiative to learn and better themselves. What techniques do you find 
are most successful in encouraging students to become engaged in math 
and science projects? How should we be capturing the imagination of 
young students through STEM programs?

A1. This is a two-pronged exercise. First you have to lead the student 
to the project. Requiring one for the class is the surest way to do 
this. Now you have to make the student engaged--a much, much harder 
proposal. The student has to take possession of the project to become 
engaged. The teacher cannot assign a topic. I will often start off by 
asking the students to complete their interest inventory with 
categories from ``really cool!!!'' to ``wouldn't touch it with a 10-ft 
pole.'' Next, reading science can stimulate questions. Scientific 
American, SciAm Mind, Discover, National Geographic and NYTimes Science 
section are available in the classroom. Often working in a small group 
will generate the question. After all the work is done, data collected 
and analyzed it is important to have the student scientists communicate 
their findings. Each project that my freshman research class worked on 
is displayed in a poster session on the hallway walls outside of the 
classroom and each group presents the poster to the rest of the class. 
The posters stay up well into the next academic year and the students 
can see other students, teachers and visitors examining their work.
    Participation in competitions is a great tool to sustain student 
interest in a STEM project. Local science fairs to national 
competitions are a way to show off students' work. In this regard 
ExploraVision is unique. Traditional science fairs require some sort of 
experimentation to be completed. Often this requires specialized 
equipment or chemicals not always available to student in every type of 
school. Students involved in an ExploraVision project use their 
imaginations to come up with an idea, develop skills to accumulate 
background information, use logic to project their idea into the future 
and then hone communication skills to present their idea to the 
national judging panel. Each of these steps develops a core skill 
present in every district's, every school's, every grade's educational 
plan. With four grade-level categories and 500 Honorable Mention 
Awards, the ExploraVision competition can be used as a strong motivator 
for engaging students at all levels in STEM fields.
Responses by students of Dr. Karen Lozano (Jorge Vidal), Mrs. Brenda
Conwell-Dudley (Jack Dudley), and Ms. Anne Manwell (Alison Reed,
Norine Chan, and David Kurkovskiy)

Questions submitted by Chairman Ralph M. Hall

Q1.  How do you find time to be involved in all the extracurricular 
activities and focus on school work and win national science 
competitions?

Response by Master Jorge Vidal

A1. The more you have to do, the quicker you get everything done. You 
see I am a ``A'' honor roll student in one of the top middle schools. I 
swim 22 hours a week, eight times a week year round. I also play 
several instruments, including piano, guitar and harmonica. I am a 14-
year-old who has won the ExploraVision national science competition 
twice. Now how does one person do so much in one day? It's simple, 
every time you get a free minute you do your homework, or projects. All 
schools have study hall or tutorial period during school hours, take 
advantage of that time. Get your homework done there so you can do 
other activities after school. Since I know that I will not be getting 
home till 8:30 p.m., I won't have much time to do homework when I get 
home, so I do it in school. On the other hand, kids who go home after 
school have the whole afternoon to do homework so they procrastinate 
and leave it for later, knowing that they will have time later, but 
they procrastinate so much that before they know it, it is 10:30 and 
they haven't started their homework. It is good to have a full schedule 
even if it is with house chores in the afternoon. The more you have to 
do, the quicker you get everything done. So what does that mean? I have 
a lot of things to do in 24 hours, and I have to get everything done 
and do it right. So I work fast and efficiently with my work and do 
time management and don't waste time playing video games and watching 
TV, or texting/playing on my cell phone. On the weekends I rest, spend 
time with my family and go to church. If I can do it, then the other 
tens of millions of teenagers living in America can do it, no excuse! 
Being involved in sports is very important. Having a hobby such as 
playing piano, taking art class, etc., is also very important. And good 
grades in school to top it off. If all the kids in America had a full 
schedule, you will see a big difference in grades, promised. It is not 
easy, but possible.

Response by Master Jack Dudley

A1. I find time to be involved in extracurricular activities (e.g., 
national science competitions) and time to focus on school work by not 
participating in too many extracurricular activities. I also try to do 
as much of my homework at school as possible.

Response by Miss Alison Reed, Miss Norine Chan, and Mr. David 
        Kurkovskiy

A1. As students in Stuyvesant High School, one of the most rigorous and 
demanding public high schools in New York City, we are often faced with 
the challenge of balancing schoolwork and extra-curricular activities. 
It is something we have been doing since freshman year, as we are urged 
to devote ourselves to community service, school sports teams, school 
publications, and extra projects in addition to the learning we do in 
classes. David Kurkovskiy writes for the school newspaper, participates 
in Stuyvesant's literary magazine, and volunteers periodically for his 
school. Norine Chan is part of Stuyvesant's fencing team, and competes 
for Stuyvesant's speech and debate team. Alison Reed is a member of the 
tennis team, and contributes to art for school productions. All three 
of us have devoted countless after-school hours in working on the 
Toshiba ExploraVision contest.
    With such packed extracurricular schedules, it is difficult for us 
to complete assignments and study for our classes. Stuyvesant offers 
advanced classes, and all of us took an advanced placement course in 
history this year. Some of the arduous honors classes we took included 
trigonometry and chemistry. In order to balance the time of our studies 
and other activities, we would have to make the most of any free time 
we had. This meant that hour-long train rides to school would involve 
cramming for the day's exams. Many lunch periods would be spent 
completing homework in advance, so as to make up for the time spent on 
the project after school. There would be nights when we all returned 
home at 11 p.m.; in one case, this was the day before a difficult 
trigonometry honors test. In times like these, we would have to 
sacrifice long-deserved sleep on weeknights. In spite of this all, all 
of us are relatively good in managing and making the most of our time, 
and all of us completed the school year with averages above 96. Because 
of the strong foundation in academics and time management we received 
as high school freshmen, we were able to balance the Toshiba project, 
schoolwork, and extra-curriculars.


Q2.  One of the interesting themes I have heard each of you touch on is 
that of teamwork. Often in grades K-12 there is little emphasis placed 
on learning to work together; instead we focus on understanding facts 
and concepts individually. What has this experience taught you about 
working together with others, fellow students, teachers, and mentors?

Response by Master Jorge Vidal

A2. There is not a single job in the world where you won't have to work 
with other people, and listen to what they have to say and use your 
communication skills to brainstorm ideas and other concepts. If this 
concept of working with others is not taught as a little kid it will be 
very hard to develop as an adult. Just like a language, a kid will 
learn the language like a sponge, but try and teach a language to an 
adult and it will be very difficult. ExploraVision forces students to 
work with others, brainstorm ideas, listen to what others have 
researched and what they have to say. Very similar to what an 
individual has to do in a job. Working as a team from when you are a 
little kid helps develop those communication skills needed for the 
future. It is easier and faster at times to work alone. Not having to 
listen to what others have to say and do everything your own way, but 
really when is that going to happen in a job. You have to listen to 
what your boss has to say and what your coworkers have to say. For 
example in Montessori education teamwork, interacting with other 
individuals is highly encouraged. ExploraVision does an excellent job 
in incorporating this skill. And more of this should be incorporated 
into schools across the United States.

Response by Master Jack Dudley

A2. This experience taught me that working together with others, fellow 
students, and adults is much better than working on my own. I have 
learned that you can get much more done with a team and it is more fun. 
It is also easier to generate good ideas, and filter out the bad ones.

Response by Miss Alison Reed, Miss Norine Chan, and Mr. David 
        Kurkovskiy

A2. Working together on the Toshiba project has taught us that a group 
project requires the contribution of all its members. We would all have 
to share opinions on whichever part of the project we were working on, 
be it the color scheme of the Web site we had to create, or how to 
phrase certain ideas in our written proposal. Many times there would be 
a disagreement, and knowing when the right time to yield to the others 
became difficult. In order to overcome these disagreements, we learned 
to compromise. Compromise, in addition to bettering our project, is an 
important life skill we learned over the course of our project. It 
allows an efficient work ethic and furthers team building.
    Working as a team also fosters friendships, and it has strengthened 
the bond between the three of us. By facing looming deadlines and 
difficult decisions together, we've learned to trust and respect each 
other. In addition to working as a team, we had to employ the help of 
teachers, and other students while working on our project. Our coach, 
Samantha Daves, helped keep us organized by giving us periodic 
deadlines and overseeing the development of our project. Our mentor, 
Ms. Manwell, consulted us for biological accuracy in our Web site and 
paper, and worked with us in strengthening our ideas. We've also 
received much help from the assorted faculty of Stuyvesant High School, 
whose different talents helped us throughout our project. Biology 
teacher Jonathan Gastel gave us constructive criticism on our idea 
during its early stages. Technology teacher Elka Gould taught us 
elements of video editing and reviewed the video on our Web site with 
us. Finally, the assistant principal of the chemistry and physics 
department, Scott Thomas, helped us in building our prototype. In 
addition to enlisting the help of teachers, other students have offered 
their services. For example, friends of ours helped us in cutting 
pieces for our prototype and designing the initial logo for our Web 
site. By working on the Toshiba project, we've learned to work with 
each other, our teachers, and other students.

Question submitted by Representative Randy Neugebauer

Q1.  What has been the most rewarding part of your experience with 
these projects and competitions? After participating, do you think you 
would be more or less likely to pursue science or math as you get 
older?

Response by Master Jack Dudley

A1. The most rewarding part of my experience with these projects and 
competitions is the thrill of winning, and the excitement of learning 
new things. Another rewarding part of my experience is working as a 
team to solve problems that the world is facing today. After 
participating, I think that I am more likely to pursue science and math 
when I grow older. I would like to be a rocket engineer like my dad, 
and that definitely involves math and science.

Response by Miss Alison Reed, Miss Norine Chan, and Mr. David 
        Kurkovskiy

A1. The most rewarding experience of the Toshiba ExploraVision contest 
was learning to work as a team and seeing an idea come to fruition. We 
were able to see our idea of building a 3D bio-printer through from the 
initial concept to its final stage as a prototype. Seeing it as a final 
product was rewarding because countless hours were spent in writing the 
paper and creating the Web site. Completing the Toshiba project has 
made us aware of the scientific opportunities in our future. All three 
of us consider science as an important subject and a possibility for 
our career. Norine Chan wishes to become a doctor when she is older. 
David Kurkovskiy, though undecided about his future profession, will be 
participating in the Intel Science Talent Search competition for social 
science in the next year. Alison Reed, too, considers pursuing a career 
in science as a possibility for her future.

                                   

</pre></body></html>
